<html>
<title> - H.R. 2048 and H.RES. 30</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                        H.R. 2048 and H.RES. 30

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              May 22, 2003

                               __________

                           Serial No. 108-22

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

87-232              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
VACANCY

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
        FRANK PALLONE, JR., New Jersey, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey               Neil Abercrombie, Hawaii
Mark E. Souder, Indiana              Solomon P. Ortiz, Texas
Walter B. Jones, Jr., North          Madeleine Z. Bordallo, Guam
    Carolina                         Nick J. Rahall II, West Virginia, 
Richard W. Pombo, California, ex         ex officio
    officio
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 22, 2003.....................................     1

Statement of Members:
    Cunningham, Hon. Randy ``Duke,'' a Representative in Congress 
      from the State of California...............................     3
        Prepared statement of....................................     7
        Letter to Secretary Evans submitted for the record.......    40
        Letter to Robert Fletcher submitted for the record.......     6
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     2
    Pallone, Hon. Frank, a Representative in Congress from the 
      State of New Jersey........................................     9
        Nature article entitled ``Rapid worldwide depletion of 
          predatory fish communities'' submitted for the record..    11

Statement of Witnesses:
    Hogarth, Dr. William T., Assistant Administrator for 
      Fisheries, National Marine Fisheries Service, National 
      Oceanic and Atmospheric Administration, U.S. Department of 
      Commerce...................................................    23
        Prepared statement of....................................    26
        Response to questions submitted for the record...........    56
    Jones, Marshall P., Jr., Deputy Director, Fish and Wildlife 
      Service, U.S. Department of the Interior...................    31
        Prepared statement of....................................    33
        Response to questions submitted for the record...........    61
    West, Ambassador Mary Beth, Deputy Assistant Secretary for 
      Oceans and Fisheries, Bureau of Oceans and International 
      Environmental and Scientific Affairs, U.S. Department of 
      State......................................................    15
        Prepared statement of....................................    17
        Response to questions submitted for the record...........    64

Additional materials supplied:
    Fletcher, Robert C., President, Sportfishing Association of 
      California, Letters submitted for the record by Hon. Wayne 
      Gilchrest..................................................    52


   LEGISLATIVE HEARING ON H.R. 2048, A BILL TO EXTEND THE PERIOD FOR 
  REIMBURSEMENT UNDER THE FISHERMEN'S PROTECTIVE ACT OF 1967, AND TO 
   REAUTHORIZE THE YUKON RIVER RESTORATION AND ENHANCEMENT FUND; AND 
      H.RES. 30, A RESOLUTION CONCERNING THE SAN DIEGO LONG-RANGE 
SPORTFISHING FLEET AND RIGHTS TO FISH THE WATERS NEAR THE REVILLAGIGEDO 
                           ISLANDS OF MEXICO.

                              ----------                              


                         Thursday, May 22, 2003

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 1334, Longworth House Office Building, Hon. Wayne T. 
Gilchrest [Chairman of the Subcommittee] presiding.
    Present: Representatives Gilchrest, Pallone, Saxton, and 
Cunningham.

 STATEMENT OF THE HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. The Subcommittee will come to order.
    The Ranking Member, I understand, will be here in just a 
few minutes.
    Before I begin this morning, I would like to ask unanimous 
consent that our colleague Congressman Duke Cunningham be 
allowed to sit at the dais and participate in today's hearing.
    Hearing no objection, so ordered. Duke is not going to 
object.
    I want to thank the witnesses for coming this morning. We 
look forward to your testimony on a number of issues. We will 
review two pieces of legislation: H.R. 2048 and H. Res. 30. In 
addition, we have asked the witnesses to address issues of 
interest to the Subcommittee concerning our obligations under 
various international fishery and marine mammal conservation 
management treaties.
    The first bill is H.R. 2048, which authorizes two laws 
dealing with international fisheries: The Fishermen's 
Protective Act and the Yukon River Salmon Act.
    The second piece of legislation is H. Res. 30, introduced 
by my friend and colleague, Congress Duke Cunningham. This 
resolution calls on the Departments of State and Commerce, both 
of which are represented on the panel before us, to work with 
their counterparts in the Mexican Government to allow charter 
fishermen from San Diego to regain access to a number of 
islands in Mexican waters that these fishermen have had access 
to in the past.
    Finally, we have asked our witnesses a number of questions 
regarding their activities on the international front. For 
instance, I understand there are three new treaties that deal 
with either marine mammal management or cooperative fisheries 
management. I also understand there have been a number of 
international fishery management bodies that have met in the 
past year or will meet in the near future, and some of the 
issues being discussed will affect domestic management of our 
fishery resources.
    One such issue is the management of the Patagonian 
Toothfish, also known as Chilean Sea Bass, which was a topic of 
much debate on the recent CITES meeting. I hope we will hear 
what the U.S. is doing to implement a domestic catch 
verification scheme to ensure that what is on the market in the 
U.S. is coming from a country that is following the 
international rules. This fishery is a clear case where 
illegal, unregulated, and unreported, or IUU fishing is having 
a negative impact on a fishery that is under international 
management.
    As all of our members know, this Subcommittee has 
jurisdiction over international fishery agreements, and while 
this hearing will just scratch the surface of our jurisdiction, 
I hope it will highlight some of the issues or international 
agreements upon which we should spend some more time later on 
in this year.
    We look forward to hearing from our witnesses this morning, 
and I want to thank all of you for coming back so many times to 
Capitol Hill. And when Mr. Pallone gets here, we will give him 
time for his opening statement.
    I will yield now for any time he may want to use to Mr. 
Cunningham from California. Do you have any statement you want 
to say up front?
    [The prepared statement of Mr. Gilchrest follows:]

       Statement of The Honorable Wayne T. Gilchrest, Chairman, 
      Subcommittee on Fisheries Conservation, Wildlife and Oceans

    Today, the Subcommittee will review two pieces of legislation--H.R. 
2048 and H.Res. 30. In addition, we have asked the witnesses to address 
issues of interest to the Subcommittee concerning our obligations under 
various international fishery and marine mammal conservation and 
management treaties.
    The first bill is H.R. 2048 which reauthorizes two laws dealing 
with international fisheries--the Fishermen's Protective Act and the 
Yukon River Salmon Act.
    The second piece of legislation is H.Res. 30, introduced by my 
friend and colleague, Congressman Duke Cunningham. This resolution 
calls on the Departments of State and Commerce, both of which are 
represented on the panel before us, to work with their counterparts in 
the Mexican government to allow charter fishermen from San Diego to 
regain access to a number of islands in Mexican waters that these 
fishermen have had access to in the past.
    Finally, we have asked our witnesses a number of questions 
regarding their activities on the international front. For instance, I 
understand there are three new treaties that deal with either marine 
mammal management or cooperative fisheries management. I also 
understand there have been a number of international fishery management 
bodies that have met in the past year or will meet in the near future 
and some of the issues being discussed will affect domestic management 
of our fishery resources.
    One such issue is the management of Patagonian Toothfish, also 
known as Chilean Sea Bass, which was a topic of much debate at the 
recent CITES meeting. I hope we will hear what the U.S. is doing to 
implement a domestic catch verification scheme to ensure that what is 
on the market in the U.S. is coming from a country that is following 
the international rules. This fishery is a clear case where illegal, 
unregulated and unreported, or I.U.U., fishing is having a negative 
impact on a fishery that is under international management.
    As all of our Members know, this Subcommittee has jurisdiction over 
international fishery agreements and while this hearing will just 
scratch the surface of our jurisdiction, I hope it will highlight some 
of the issues or international agreements on which we should spend some 
more time later in the year.
    I look forward to hearing from all of our witnesses today. I also 
ask unanimous consent that the statement of Mr. Robert Fletcher, 
President of the California Sportfishing Association, be entered into 
the record at the appropriate point.
    I am pleased to recognize the Ranking Democratic Member of the 
Subcommittee, The Honorable Frank Pallone.
                                 ______
                                 
    Mr. Cunningham. Thank you, Mr. Chairman. Do you want me to 
go through my resolution right now?
    Mr. Gilchrest. You may. If you want to make a comment or 
statement --
    Mr. Cunningham. Do you want me to wait for Mr. Pallone?
    Mr. Gilchrest. I think you can begin, Mr. Cunningham.

      STATEMENT OF THE HON. RANDY ``DUKE'' CUNNINGHAM, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Cunningham. Well, thank you, Mr. Chairman, my 
classmate.
    I sat there on that side when I first got here 12 years ago 
in Congress when the great Walter E. Jones was the Chairman. I 
want to tell you he worked in a very bipartisan way. He was a 
great man, and now his son sits right here in this position 
next to me here. And since that time, I think we have done a 
lot of good. The Chairman focuses on the environment, on 
wildlife and fisheries management, and I have been proud to fly 
his wing on many, many issues, and I want to thank you.
    Mexico has allowed fishing in the Revillagigedo Islands 
since 1970, and in late 1994, Mexico declared that the islands 
would become part of a biosphere reserve and a closed area. I 
worked with Secretary Comacho, who was then Secretary of 
Fisheries and a great man, and again, in a very bipartisan way, 
we sat down for almost a year going through Mexican law, 
environmental law, and came up with a plan to where U.S. and 
Mexico could sportfish within the islands and it was a good 
plan.
    In 1995, Mexico reopened the islands to sportsfishing and 
said they would allow it until a management plan was completed. 
To date, Mexico announced that the management plan was due in 
March, but we haven't seen it yet, and most scientific studies 
point out that sportsfishing's impact on the ecosystem is 
positive. The problem is commercial long-liners.
    Are there certain fish species that have been depleted? I 
fish. As a matter of fact, on the 30th of this month, I am 
going down yellowfin fishing with sportsfishermen, and I have 
been about four times this year, and I have caught a record 
number in large mature fish every single time. I have caught 
wahoo. I have caught yellow tail and some good species.
    But one long-line fishing vessel that comes in illegally 
catches more than an entire season of every sportsfisherman's 
take. They deplete the resource. Now, you as citizens can go 
out for a weekend. You go down to a boat. You pay your money, 
and you go out with a single line and catch fish. That doesn't 
deplete the resource. The real problem, we feel, are the long-
liners and the commercial fishermen.
    The sportsfishermen, Mr. Chairman, actually turn away 
illegal fishermen in the areas around the islands because that 
is where the fish respond. The Mexican authorities do not 
adequately accomplish this function. You know, whether it is 
border control or fishing, they are just not as responsive--
they have a law, but they just don't back it in up in many 
cases. And the ecosystem has actually benefited from our 
sportsfishermen.
    San Diego stands to lose literally thousands of jobs. We 
are talking mostly Portuguese families that have fished for 
hundreds of years and had the right to do that, and they 
maintain those stocks. If they deplete the stocks, their 
livelihood, they lose. So just as farmers are, I think, the 
best managers of wildlife, our sportfishermen are the best 
managers of our seas--the sportsfishermen, not necessarily the 
commercial fishermen.
    And I would say the fleet has already lost an entire 
season. If fish disappear and the fleet loses their livelihood, 
they are not only out of business, but the fisheries system, 
the ecosystem, is also depleted.
    Welcome, Mr. Pallone.
    The fleet has offered to stop trolling in the area. 
Trolling is taking the boat with long lines in the back and 
fish. They have agreed not to do that within six miles of the 
island, and most of the fish are inside that level, to reduce 
the individual take of wahoo from 15 fish to personally 10 fish 
per season, to carry observers from Mexico itself to make sure 
that they don't violate the laws. Every boat that goes out will 
have a Mexican observer on it to make sure that this is done.
    Secretary Evans and his staff have been quite helpful in 
trying to resolve this issue, and I am proud of my record, not 
only on this Committee, but for the last 12 years. The Tuna-
Dolphin Bill was mine in which we saved species, young species, 
and bycatch that was being pulled up and discarded. The Shark 
Finning Bill was my bill. As a sportsman, I found that 
fisherman were catching sharks, cutting the fins off, and then 
dropping the carcass back. That is just wrong. I am not and 
extreme environmentalist, but I am a conservationist, and I 
want the species for my children and for Mr. Pallone's children 
and our families to exist.
    That goodwill is in jeopardy, Mr. Chairman. I have 
supported NAFTA. I supported when the peso devaluation came 
forward, working with our sister country in San Diego on 
immigration issues and stuff, but I want to tell you there is a 
large group of us, Republicans and Democrats that are not going 
to take this last slap in the face from Mexico.
    This resolution sends a strong message to the Mexican 
Government and Vincente Fox to help us resolve this issue, save 
the ecosystem, save jobs for Mexico all the way from Cabo San 
Lucas up to northern San Diego and help us do that. It is a 
good resolution. It is a bipartisan resolution.
    There was a study done by free divers. This is about 15,000 
hours of diving around the islands. Well, guess what. If I am 
hunting elk and I hunt elk the desert. I am going to tell you 
there aren't any elk in there and the species is depleted. 
Where I go up is Montrose, Colorado to hunt elk or other areas 
which they have been brought in, and the islands where these 
divers dive in this study just isn't where the species are. I 
mean, they are migratory and they travel all over, but where 
the Wahoo, what the yellowfin, and the fish are do not relate 
to this.
    [The letter referred to follows:] 
    [GRAPHIC] [TIFF OMITTED] T7232.002
    
    [GRAPHIC] [TIFF OMITTED] T7232.003
    

    *Mr.  Cunningham. I laud them for trying to do a study, but 
it is just not accurate, and I would thank the Chairman.
    [The prepared statement of Mr. Cunningham follows:]

Statement of The Honorable Randy ``Duke'' Cunningham, a Representative 
                in Congress from the State of California

    Mr. Chairman, I am pleased to be here today before the Subcommittee 
on Fisheries Conservation, Wildlife and Oceans to discuss my 
legislation, House Resolution 30. When I was first elected to the House 
of Representatives, I sat on the Merchant Marine and Fisheries 
Committee. Since that time I have fought to protect our resources and I 
appreciate all that is done in this Subcommittee to ensure the safest 
and most efficient methods overseeing our fisheries.
    The long-range sportfishing fleet of San Diego has fished the 
waters off Mexico's Revillagigedo Islands (the Islands) since the early 
1970s. This activity has occurred under agreements with various 
agencies of the Mexican Government including the Mexican Navy, the 
National Ecology Institute, and the Department of Environment, Natural 
Resources, and Fisheries. These longstanding agreements made for a safe 
business environment and resulted in major capital expenditures by the 
San Diego sportfishing fleet, namely long-range sportfishing boats.
    In 1994, the President of Mexico declared that the Islands would 
become part of a biosphere reserve and ordered an overall management 
plan, to include fishing regulations, to be completed within one year. 
In late 1994, the Mexican Navy closed the Islands to fishing until the 
management plan was complete.
    After negotiations, in January of 1995, the Mexican Government 
agreed to issue provisional permits to the San Diego sportfishing fleet 
to fish the waters more than 500 meters from the islands until such 
time as a management plan was completed. It was understood that the 
final fishing regulations concerning the biosphere reserve would be 
included in the management plan. To date the management plan has not 
been completed.
    On March 26th, 2002, without warning, the Mexican Government 
revoked all permits to fish within 6 nautical miles of the islands. 
This essentially closed the islands to sportfishing, as the large tuna 
that are sought in these waters are not to be found outside the six 
mile limit.
    This action, in direct conflict with previous agreements, is having 
a devastating impact on the San Diego long-range sportfishing fleet, 
its employees, and tourism associated with the fleet. Mexico's 
continued refusal to allow the sportfishing fleet access to the 
islands' waters will cause serious economic harm to this important San 
Diego industry including lay-offs, loss of boat sales, bankruptcies, 
and a negative annual economic impact of $5,500,000.
    The season runs from October through June, so the fleet has already 
lost one entire season. Their normal customers are not interested in 
fishing the local waters for smaller fish and instead head to Hawaii or 
foreign countries to catch their world class sportfish. Many companies 
will not be able to recover from this lost revenue. While our efforts 
to convince Mexico to restore grant permits to the sportfishing fleet 
in the nearshore waters around the four islands have been consistent, 
this issue still remains unresolved, frustrating my constituents who 
have lost their livelihood.
    I wish to commend the efforts of Commerce Secretary Donald Evans 
and his staff in working with me to resolve this problem. Secretary 
Evans has initiated many talks with Secretary Derbez, his counterpart 
in Mexico, to find a solution. The two have developed an excellent 
relationship and were engaged in negotiations on the Revillagigedo 
Archipelago issue throughout the past eight months. As you may know, 
Secretary Derbez was appointed to the position of Foreign Minister 
earlier this month. We have yet to see how this will effect Secretary 
Evans' efforts and hope that this will not be a setback to the 
resolution of this time sensitive issue.
    The Sportfishing Association of California (SAC) also deserves to 
be recognized for their dedication to resolution of this issue. Bob 
Fletcher, President of SAC, has traveled to Mexico on numerous 
occasions to meet with both U.S. and Mexican officials. He keeps an 
open mind and works to educate Mexico on the adverse effects this 
decisions has had on both countries. Earlier this year, he was present 
in La Paz and Manzanillo and actively involved in the discussions of 
the management plan for the Islands. He has worked to develop healthy 
relationships with Mexican officials in order to find a resolution that 
will hopefully sustain the livelihood of this fishing fleet. SAC has 
tried to sensitive to Mexico's environmental concerns, offering to stop 
trolling all together, reduce their yield of wahoo, carry Mexican 
observers, and other actions as spelled out in my letter on their 
behalf to Secretary Evans, dated December 19, 2002 (attached). They are 
willing to work with the Mexican government on this issue.
    I am proud of my record of cooperation with Mexico in the trade 
arena and have worked hard for years to sustain and improve the history 
of working together that San Diego and Mexico enjoy. That goodwill is 
in jeopardy, however, as I watch my constituents suffer tremendous 
losses with seeming indifference from the Mexican Government. I am 
disheartened by delays of the Mexican Government to swiftly resolve 
this issue. The environmental enforcement agency of the Mexican 
Government, PROFEPA, has claimed that the failure to complete a 
management plan has necessitated the revocation of permits. An 
objective review of the facts, however, will clearly lay the blame for 
this crisis at the door of the Mexican Government, for failing to 
complete the management plan by June of 1995, as required by the 
Presidential Decree that created the Revillagigedo Archipelago 
Biosphere Reserve. A plan was in fact completed in draft form and 
forwarded to the U.S. Embassy in mid-1997, and that plan, a very 
acceptable document, was then left to gather dust for years.
    This issue can be easily resolved, if President Vicente Fox will 
amend the 1994 Presidential Decree that created the Biosphere Reserve 
of the Revillagigedo Archipelago. An amendment to the Presidential 
Decree would solve the issue once and for all. At present, the Decree 
mandates a 6 nautical mile nucleus zone be in place around all four 
islands in the Archipelago. If the Decree were amended to 500-meter 
nucleus zones around each of the four islands, it would still protect 
the species of concern and their habitats, while opening the waters 
outside 500-meters to limited sportfishing use. The 1994 Decree 
intended for the allowance of sportfishing within that area.
    Mr. Chairman, House Resolution 30 sends a strong message to the 
Mexican government that reneging on this a long standing agreement will 
not go unnoticed. The suspension of these fishing permits has caused 
hardship for both the U.S. and Mexican economies. While our fishing 
boats lose their livelihood, Cabo San Lucas loses tourism revenue. This 
Resolution will hopefully prove to President Fox and the Mexican 
government that resolution of this issue can be swift and beneficial to 
both of our countries. We have sought to become better neighbors with 
our friends to the South through trade agreements such as NAFTA and 
diplomatic efforts under this administration. This Resolution will show 
them how they too can be better neighbors to the United States.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Cunningham, for your 
resolution and your statement this morning.
    I yield for an opening statement to Mr. Pallone.

 STATEMENT OF THE HON. FRANK PALLONE, JR., A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman, and let me say on 
behalf of our colleague, Mr. Cunningham, I appreciate his input 
into this, and with regard to House Resolution 30, I am 
interested to hear testimony that might clarify the Mexican 
Government's position on the islands in Mexico and the 
developments over the past year leading to the Mexican 
Government's decision to exclude San Diego's recreational 
fishing fleet.
    I respect the sovereign right of every nation to manage 
their fisheries within their waters, but it appears in this 
situation we need additional clarification. So hopefully we 
will get that during the panel discussion.
    Let me say, Mr. Chairman, I think this hearing is 
important, particularly with regard to the international 
fisheries agreements that are important, I think, for a variety 
of economic and ecological reasons, not least of which is that 
the improper or unfair management of international fisheries 
costs our constituents millions of dollars in lost revenues. 
Clearly global fisheries management is vital not only to the 
livelihoods of commercial fisherman in our nation and around 
the world, but also to the effect of conservation of highly 
migratory species and the so-called straddling stocks, those 
species that straddle borders of two or three nations.
    I think that our efforts to guarantee international 
compliance with fisheries agreements are not only justified, 
but crucial to avoid seriously adverse economic impacts on our 
own fishermen and to protect global fisheries in the long term. 
Illegal, unregulated, and unreported fishing is an enormous 
problem as the New Jersey-based Bluewater Fishermen's 
Association attested to in this past Sunday's Boston Globe. 
Poachers fishing in foreign waters sell their catch at a much 
lower price than our law-abiding commercial fishermen can 
afford. In addition, the decline of highly migratory species 
such as Atlantic white marlin forces even non-commercial 
fishermen to be stringently regulated.
    I wanted to call attention: In last week's issue of the 
scientific journal ``Nature'', two scientists from Dalhousie 
University in Nova Scotia addressed the problem of global 
overfishing. The authors performed statistical analyses using 
global government and fishing industry data from the past 50-
plus years. They concluded that the industrialization of the 
commercial fishing industry has obliterated 90 percent of each 
of the world's large ocean fish species.
    U.S. fishermen are expected to adhere to national and 
international laws that are in place to protect these highly 
migratory fish species, but fish piracy resulting in illegal 
and unreported catches around the world is a serious problem 
that needs to be addressed on a global scale.
    These illegal fishing practices will result in fewer and 
smaller fish for everyone unless we devote significant time and 
effort to more effectively managing international fisheries. 
Clearly, the U.S. cannot ignore the global fisheries crisis if 
it hopes to maintain a sustainable domestic fishing industry. 
Furthermore, the U.S. needs to take a much stronger position on 
international compliance with these agreements. If all member 
nations in these agreements would simply enforce the approved 
regulations, the over-fishing of highly migratory fish species 
would undoubtedly be decreased to a large degree. It is 
entirely unfair to our commercial fisherman that rogue fishing 
vessels are allowed to get away with fishing illegally under 
the flags of other nations.
    I just wanted to say in conclusion that hopefully we will 
gain greater insight today regarding the cooperation and 
effectiveness of those international fisheries agreements to 
which the U.S. is a party, and I am hopeful the U.S. will be 
able to convince our partner nations of the importance of 
increased cooperation in international fishery matters, and I 
am looking forward to hearing from our witnesses about recent 
accomplishments and goals in these international treaties.
    If I could just submit the article that I mentioned, Mr. 
Chairman, from Nature, I would appreciate that.
    Mr. Gilchrest. Without objection, so order.
    Mr. Pallone. Thank you.
    [The Nature article follows:] 

    [GRAPHIC] [TIFF OMITTED] T7232.004
    
    [GRAPHIC] [TIFF OMITTED] T7232.005
    
    [GRAPHIC] [TIFF OMITTED] T7232.006
    
    [GRAPHIC] [TIFF OMITTED] T7232.007
    
    Mr. Gilchrest. Thank you, Mr. Pallone.
    Mr. Saxton, any opening comment?
    Mr. Saxton. No.
    Mr. Gilchrest. Our witnesses this morning: Ambassador Mary 
Beth West, Deputy Assistant Secretary for Oceans and Fisheries, 
Bureau of Oceans and International Environmental and Scientific 
Affairs, Department of State.
    Welcome, Ambassador.
    Dr. William T. Hogarth, Assistant Administrator of 
Fisheries, National Marine Fisheries Service, has been with us 
many, many times. Welcome back, Mr. Hogarth.
    And Mr. Marshall Jones, who has also been here on a number 
of occasions, Deputy Director, U.S. Fish and Wildlife Service, 
Department of the Interior.
    Again, welcome all of you, and we look forward to your 
testimony this morning.
    Ambassador West, you may begin.

   STATEMENT OF AMBASSADOR MARY BETH WEST, DEPUTY ASSISTANT 
   SECRETARY FOR OCEANS AND FISHERIES, BUREAU OF OCEANS AND 
   INTERNATIONAL ENVIRONMENTAL AND SCIENTIFIC AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Ambassador West. Thank you, Mr. Chairman.
    Mr. Chairman and Members of the Subcommittee, I appreciate 
the opportunity to appear before the Subcommittee today to talk 
about international fisheries. My oral statement will cover a 
few issues of particular interest to the Subcommittee. My 
written statement, which I would like to submit for the record, 
provides more detail on these issues and reviews a number of 
other matters as well.
    Mr. Gilchrest. Without objection, your written testimony 
will be submitted to the record.
    Ambassador West. Thank you. First a bit of an overview: In 
general, profound changes have reshaped international fisheries 
in the past decade. In many key areas, the fishing capacity of 
vessels has outpaced the reproductive capacity of fish stocks. 
Many fishing vessels, particularly those flying flags of 
convenience, do not abide by agreed rules. Concerns have also 
arisen about the effects of fishing on other marine life and on 
the marine environment as a whole.
    To confront these daunting challenges, the U.S. has 
negotiated a wide range of international instruments designed 
to promote sustainable fisheries worldwide. Effective 
implementation of these instruments is critical to reaching 
this goal.
    Turning to bilateral issues with Canada, let me say that 
relations with Canada on fisheries issues are better than they 
have been in many years. The 1999 Pacific Salmon Agreement 
resolved longstanding issues between the two sides and has 
allowed the Pacific Salmon Commission to function effectively 
once again.
    We have also concluded three other bilateral fisheries 
agreements with Canada since 1999 that will help both of us, 
both the U.S. and Canada, conserve and manage shared fish 
stocks. The first is an agreement to manage salmon fisheries on 
the Yukon River. This agreement was concluded by exchange of 
notes in December of 2002. As envisioned in H.R. 2048, there is 
an ongoing need for authorization and appropriation of funds to 
implement the agreement. In that respect, I would note that the 
Administration has some minor technical suggestions for that 
bill which we have already provided to your staff.
    Second, the U.S. and Canada have agreed to amend the 1981 
Albacore Tuna Treaty to provide for limits on the level of 
fishing permitted by vessels of each country in the waters of 
the other country. Such changes are necessary to stem a growing 
Canadian fishery in U.S. waters and also to permit future 
management of the stock by both sides. The Administration hopes 
that the Senate will act favorably on the treaty amendment and 
that Congress as a whole will enact implementing legislation in 
the very near future.
    Third, we have concluded negotiations with Canada on a new 
agreement to manage and share the valuable transboundary stock 
of Pacific whiting, also known as Pacific hake. Disagreements 
over this stock have led to overfishing in the past. The United 
States was taking approximately 80 percent of the allowable 
catch while Canada was taking more than 30 percent, meaning 
that we were overfishing the stocks. This agreement, once it 
enters into force, should remedy that problem effectively. We 
look forward to working with Congress in developing 
implementing legislation for this agreement.
    Regarding sportfishing around the islands off Mexico, the 
Department of State fully understands the concerns raised by 
Congressman Cunningham and others about permits for U.S. 
sportfishing vessels to fish in the waters around those 
islands. Over the past year, we have raised this issue to 
senior levels in the Government of Mexico and we will certainly 
continue these efforts in coordination with you, Congress 
Cunningham, with Congress, and our colleagues in the Commerce 
Department.
    I would now like to turn to two developments concerning 
tuna fishing in the Pacific. These are both issues in which I 
have been personally involved for a lot of my time over the 
last several years. In 2000, the U.S. and 18 other nations 
signed a new treaty to manage tunas and other highly migratory 
species in the western and central Pacific. The area covered by 
this convention produces more than half of the world's annual 
tuna catch. This treaty, which is not yet in force, enjoys 
strong support from the U.S. tuna industry and the conservation 
community. We are now actively participating in the preparatory 
conference process to set up the commission that will manage 
these stocks. Once the treaty is submitted for Senate advice 
and consent, we will look forward to working with the Senate 
and also to working with both houses of Congress in developing 
necessary implementing legislation.
    We have also reached agreement with the Pacific island 
parties to extend the South Pacific Tuna Treaty, the successful 
existing treaty that allows U.S. vessels to fish for tuna in 
the waters of 16 Pacific island nations. This extension will 
run through June of 2013, in other words, 10 years from this 
coming June. Nearly all of the tuna caught pursuant to this 
treaty, which has an estimated value of between 250 and 40 
million per year for the U.S., is landed and canned in American 
Samoa.
    In extending the treaty regime, the parties also adopted a 
number of amendments, including one that will allow U.S. long-
line vessels to operate in the high seas portion of the treaty 
area. A minor amendment to the South Pacific Tuna Act of 1988 
would be necessary to take account of this.
    Turning to the FA0, in the past decade, we have sought to 
re-energize the FAO as a forum for addressing international 
fisheries policy issues. We believe that we have succeeded in 
good measure. The FAO has adopted ground-breaking instruments 
to guide the pursuit of sustainable fisheries, including the 
High Seas Fishing Vessel Compliance Agreement which just 
entered into force in late April, we are delighted to be able 
to report; the code of conduct for responsible fisheries; and 
four international plans of action on specific topics, 
including fishing capacity and IUU, illegal, unreported, and 
unregulated, fishing.
    At the most recent meeting of the FAO Committee on 
Fisheries, we made progress in addressing IUU fishing, in 
seeking to minimize the bycatch of sea turtles in fisheries, 
and improving the collection and dissemination of fisheries 
data. The future work program of FAO on these matters will 
include policy-level meetings to promote implementation of the 
plans of action on fishing capacity and on IUU fishing as well 
as a meeting to focus on reducing bycatch of sea turtles in 
fisheries. I would also note that FAO will host a major 
conference on deep sea fisheries in New Zealand in December of 
2003.
    Finally, in the interest of time, let me defer to Dr. 
Hogarth of the National Marine Fisheries Service on matters 
concerning whaling and the International Whaling Commission 
since the U.S. commissioners to that body are from the National 
Marine Fisheries Service.
    Thank you very much for the opportunity to address the 
Subcommittee, and at the appropriate time, I would be pleased 
to answer any questions that you may have. Thank you.
    [The prepared statement of Ambassador West follows:]

 Statement of Ambassador Mary Beth West, Deputy Assistant Secretary of 
  State for Oceans and Fisheries, Bureau of Oceans and International 
     Environmental and Scientific Affairs, U.S. Department of State

    Mr. Chairman and Members of the Subcommittee:
    Today's meeting is taking place against the backdrop of profound 
changes that have reshaped international fisheries in the past decade. 
We face a world in which the fishing capacity of the fleets operating 
in many key areas has outpaced the reproductive capacity of the fish 
stocks in those areas. The past decade has seen a growing incidence of 
fishing vessels that do not abide by agreed rules. Serious concerns 
have also arisen about the effects of fishing operations on other 
marine life and on the marine environment as a whole.
    To confront these daunting challenges, the United States has 
negotiated, and is working with others in the international community 
to implement, a wide range of instruments designed to promote 
sustainable fisheries worldwide. Some of these are global in scope, 
others are regional and still others are bilateral. Some have binding 
legal force, others are voluntary in nature. Effective implementation 
of these agreements and arrangements presents the best chance of 
meeting the challenges we face in the field of international fisheries.
    My statement today begins with a brief summary of the general 
situation as we see it and then reviews a number of more specific 
issues, with a particular focus on those for which the Administration 
believes congressional action is necessary or desirable. In some cases, 
the testimony of my colleagues from the Department of Commerce and the 
Department of the Interior will elaborate on these specific issues.

GENERAL SITUATION
    In 2002, the Food and Agriculture Organization of the United 
Nations (FAO) reported that global production from capture fisheries 
and aquaculture is currently the highest on record. Worldwide, the 
tonnage of fish caught in the oceans and inland areas has remained 
relatively stable in recent years, while the tonnage of fish produced 
by aquaculture has continued to increase markedly. International trade 
in fish products has also risen tremendously.
    These trends mask a number of very serious problems, however. Many 
of the world's primary fishery resources are under stress. A number of 
key fish stocks have collapsed from overfishing and environmental 
degradation (such as cod in the Northwest Atlantic), while others have 
become depleted (such as Atlantic bluefin tuna). While stocks in the 
Pacific Ocean are generally thought to be in somewhat better shape, 
increasing fishing effort on a number of those stocks gives us reason 
to be concerned.
    In 2002, FAO estimated that, among the major marine fish stocks or 
groups of stocks for which information is available, about 47 percent 
are fully exploited, while another 18 percent are overexploited. An 
additional 10 percent of such stocks have been depleted or are 
recovering from depletion. In short, there are relatively few major 
fisheries that can absorb additional fishing effort. Meanwhile, we see 
a growing demand for fisheries products and many vessels looking for 
new places to fish.
    Many factors have contributed to this situation. Most international 
management of fisheries relies upon ``open access'' approaches that can 
create incentives toward overfishing. Moreover, improvements in fishing 
technology, coupled with substantial government subsidies to fishers, 
have greatly increased harvesting capacity worldwide. To make matters 
worse, environmental degradation has spoiled some fish habitat. The 
ability of vessels to operate outside governmental controls, including 
by adopting ``flags of convenience,'' has rendered fisheries 
enforcement less than effective in many circumstances. The use of 
certain kinds of fishing gear and fishing techniques has also led to 
serious concerns about the ``bycatch'' of other species (including some 
endangered species) and harm to the marine environment.
    Fortunately for the fish, and for the fishers whose livelihoods 
depend on them, we have worked to create a network of agreements 
designed to address these critical problems. Building on the general 
international law framework for these matters established in the 1982 
United Nations Convention on the Law of the Sea, the past decade has 
witnessed a veritable explosion of new agreements and standards for the 
conservation and management of fisheries worldwide. Some of the 
important instruments are:
        <bullet> The 1995 UN Fish Stocks Agreement
        <bullet> The 1993 FAO Compliance Agreement
        <bullet> The 1995 FAO Code of Conduct for Responsible 
        Fisheries
        <bullet> Four FAO International Plans of Action on specific 
        matters
        <bullet> The 1996 Inter-American Sea Turtle Convention
        <bullet> The 1999 Agreement on the International Dolphin 
        Conservation Program
        <bullet> The 2000 Central and Western Pacific Tuna Convention 
        (not yet in force)
    Much remains to be done to ensure effective implementation of the 
full range of these instruments. Working with Congress, U.S. 
constituent groups and our partners in the international community, we 
hope to realize the goal of sustainable fisheries worldwide.
    Now, I would like to turn to a number of specific issues that we 
are confronting:

SPECIFIC ISSUES

Bilateral Issues with Canada
    Relations with Canada over fishery issues are better than they have 
been in many years. The 1999 Pacific Salmon Agreement appears to have 
resolved long-standing problems and has allowed the Pacific Salmon 
Commission to function effectively once again. The agreements on Yukon 
River salmon, on the amendments to the 1981 Albacore Treaty and on 
managing the transboundary Pacific whiting stock, described below, are 
noteworthy achievements as well.
    The 1981 U.S.-Canada Albacore Treaty allows vessels of each country 
to fish for albacore, without limitation, in waters of the other 
country. In 2002, the United States and Canada agreed to amend the 
Treaty to provide for limits on such fishing. Such changes are 
necessary to limit a recently fast-growing Canadian fishery in U.S. 
waters and also to permit future management of the stock by both sides. 
President Bush transmitted the amendment to the Treaty to the Senate in 
January 2003 and we are hopeful that the Senate will act favorably on 
this matter in the near future. In addition, we need legislation to 
implement the Treaty, both in its existing form and as revised. Such 
legislation was introduced in the 107th Congress (H.R. 1989). The 
Senate passed this legislation in November 2002, but the House did not 
take action on the bill before final adjournment. We hope that Congress 
will pass the legislation in the very near future.
    Most recently, U.S. and Canadian delegations have reached consensus 
on the text of an agreement to manage and share the valuable 
transboundary stock of Pacific whiting, also known as Pacific hake. 
Disagreements over sharing arrangements have led to overfishing in the 
past, as the United States took 80 percent of the allowable harvest, 
while Canada took more than 30 percent. This agreement, once it enters 
into force, should remedy that problem effectively. We look forward to 
working with Congress in developing implementing legislation for this 
agreement.
    The United States and Canada reached agreement on a management 
regime for salmon fisheries on the Yukon River in Alaska and the Yukon 
Territory in March 2001. U.S. and Canadian officials concluded the 
agreement through an exchange of notes in December 2002. As this is an 
executive agreement, it did not require Senate advice and consent to 
ratification, nor was any additional legislation needed to implement to 
agreement. However, as described in the testimony from the Department 
of the Interior, there is an on-going need for the authorization and 
appropriation of funds to implement the Agreement, including for the 
Restoration and Enhancement Fund established under the Agreement, as 
envisioned in H.R. 2048. In that respect, I would note that the 
Administration has some minor technical suggestions on that bill, which 
we have already provided to the staff of this Subcommittee.
    Finally, I would note that we are exploring ways to gain greater 
access for U.S. vessels to ports in Atlantic Canada. We are also 
engaged in efforts to resolve a dispute over lobster fishing in waters 
around Machias Seal Island off the coast of Maine.

Sport Fishing around the Revillagigedo Islands
    We are very much aware of congressional interest in this issue, as 
reflected in the draft Resolution introduced by Mr. Cunningham of 
California. That resolution would urge the Administration to continue 
discussions with the Government of Mexico in order to obtain permits 
for the San Diego based long-range sportfishing fleet to fish in the 
waters around the Revillagigedo Islands. In fact, over the past year, 
the Department of State, through our Embassy in Mexico City, has raised 
this issue to senior levels in the Government of Mexico, including with 
the Secretary of the Environment and other senior officials in his 
Department and other agencies involved in this issue. Throughout this 
period, we have stressed our interest in seeking to obtain permits for 
these vessels in a manner consistent with applicable Mexican law. Our 
discussions with Mexico on this issue will continue. The Department of 
Commerce will soon present a report requested by the Congress on the 
substance of these discussions and the status of this issue.

Fishermen's Protective Act Reauthorization
    The Administration supports reauthorization of the Fishermen's 
Protective Act, as envisioned in H.R. 2048. This Act has provided 
compensation to owners of U.S. fishing vessels that have been seized by 
foreign governments on the basis of claims to jurisdiction that the 
United States did not accept. Although there have not been claims under 
the Act for several years, there is always the prospect that such 
situations could arise again in the future.

Bilateral Issues with Russia
    Relations with the Russian Federation over fisheries issues in the 
North Pacific Ocean and Bering Sea are contentious. The failure of 
Russia to ratify the 1990 Maritime Boundary Treaty continues to create 
uncertainty, while corruption and lack of government resources have led 
to serious overfishing in Russian waters. A large-scale overhaul by the 
Government of the Russian Federation of its bureaucratic structure for 
managing fisheries is at present complicating efforts to address these 
matters. We are nevertheless actively looking for new ways to cooperate 
with Russia to improve this situation, including through the 
development of two new agreements, one on cooperation in marine science 
and the other on fisheries enforcement.

Regional Fishery Management Organizations
    The United States is a member of more than a dozen international 
fisheries commissions and related organizations. These organizations 
adopt measures to conserve and manage fisheries under their auspices, 
conduct related scientific research and provide venues for undertaking 
new policy initiatives in the field of marine conservation.
    Funding to support U.S. participation in these organizations comes 
from appropriations to the International Fisheries Commissions account. 
Specifically, this account covers the U.S. share of operating expenses 
of nine international fisheries commissions and organizations, one sea 
turtle convention, the International Whaling Commission, two 
international marine science organizations, and travel and other 
expenses for non-Federal U.S. Commissioners.
    In recent years, Congress has appropriated roughly $20 million for 
this account annually. For FY '03, the Administration requested $19.78 
million. Congress appropriated only $17.1 million. In the Conference 
Statement accompanying the Fiscal Year 2003 Omnibus Appropriations 
Bill, no funding was allocated for the operating expenses of the 
Pacific Salmon Commission and five other commissions. The 
Administration is in the process of submitting a notice to Congress on 
reprogramming funds within the International Fisheries Commission. The 
reprogramming will allow for the smallest feasible amount of funding so 
the Pacific Salmon Commission may continue operations and full funding 
of the smaller commissions. The Great Lakes Fisheries Commission and 
the International Pacific Halibut Commission will both be taking 
reductions in order to have all fish commissions in this account 
operating this fiscal year.
    For Fiscal Year 2004, the Administration's budget request for 
International Fisheries Commissions amounts to $20.04 million, which 
includes $75 thousand for the Antarctic Treaty. We hope that Congress 
will appropriate the full amount.
    International Commission for the Conservation of Atlantic Tunas 
(ICCAT). This commission manages tunas (and tuna-like species, such as 
swordfish) in the Atlantic Ocean. Key conservation issues facing ICCAT 
include maintenance of rebuilding programs for North Atlantic 
swordfish, pressing for greater compliance with ICCAT rules, cracking 
down further on ``IUU'' fishing of ICCAT species, reviewing ICCAT's 
practice of managing eastern and western bluefin tuna as separate 
stocks, and pressing for measures to conserve sea turtles and sharks 
incidentally captured in these fisheries. Recent attention has been 
focused on the EU's activities in ICCAT, and in fact a coalition of 
environmental groups and several state governors submitted a request to 
certify the EU under the Pelly Amendment to the Fishermen's Protective 
Act of 1967 for diminishing the effectiveness of ICCAT. We are working 
closely with the Department of Commerce on this issue.
    Northwest Atlantic Fisheries Organization (NAFO). This Commission 
manages a wide variety of fisheries on the high seas of the northwest 
Atlantic Ocean, many of which remain seriously depleted. Some stocks, 
however, are rebounding after years of sharply restricted fishing, 
including yellowtail flounder. U.S. priorities in NAFO include seeking 
greater access for U.S. vessels to such recovering stocks and modifying 
the NAFO system for allocating quotas more generally. The United States 
has taken an active role in NAFO and held many positions of leadership 
in the organization; however, we are considering the proper balance 
between our level of participation in NAFO and the benefits we accrue 
there. The Department of Commerce witness will also address this issue 
in more detail.
    Western and Central Pacific Fisheries Commission (WCPFC). 
Negotiations to establish a Western and Central Pacific Fisheries 
Commission concluded in September 2001. The United States and 18 other 
States have signed the Convention that will create the WCPFC, but it 
has not yet entered into force. The area covered by this Convention 
encompasses the last major area of the world's oceans not covered by a 
regional management regime for tunas and other highly migratory 
species. This region produces more than half the world's annual tuna 
catch. The United States is actively participating in the WCPFC 
Preparatory Process.
    One key issue that we hope to see addressed under this new 
Convention is that of excess fishing capacity--too many vessels 
catching too many fish. While the stocks of tuna in the Western and 
Central Pacific are not currently considered to be over-fished, excess 
capacity complicates adoption and implementation of effective 
conservation and management measures and has significant implications 
for the economic viability of these fisheries in the longer term.
    This Convention, which enjoys strong support from the tuna industry 
and conservation organizations, will require Senate advice and consent 
to ratification. New legislation to implement the Convention will also 
be necessary before the United States could become a party to it. We 
look forward to working with the Committee on such legislation.
    Commission for the Conservation of Antarctic Marine Living 
Resources (CCAMLR). The 24-member Commission for the Conservation of 
Antarctic Marine Living Resources governs the harvesting of marine 
resources in the Southern Ocean. Concern has grown over the illegal 
harvesting of Patagonian toothfish, a high-value, long-lived fish 
species marketed in the U.S. as Chilean sea bass. CCAMLR designed an 
innovative catch documentation system in 2000 and, at its last meeting 
in November, adopted changes to distinguish better between legal and 
illegal catches and is instituting a list of fishing vessels which have 
engaged in IUU fishing. CCAMLR also is moving towards an internet-based 
document and tracking system to reduce the possibilities for fraud.
    Other Commissions. The United States participates in a number of 
other international fisheries commissions as well. Two of them, the 
International Pacific Halibut Commission and the Great Lakes Fishery 
Commission, involve Canada as the only other member. Two others, the 
North Atlantic Salmon Conservation Organization and the North Pacific 
Anadromous Fish Commission, have missions to conserve salmon stocks in 
their respective regions, including by ensuring that such stocks are 
not fished on the high seas. Finally, we are a longtime member of the 
Inter-American Tropical Tuna Commission, which regulates tuna fishing 
in the Eastern Pacific and is involved with our efforts to protect 
dolphin stocks in that region, as discussed below.

South Pacific Tuna Access Agreement
    This Treaty, which allows U.S. vessels to fish for tuna in the 
waters of 16 Pacific Island States, entered into force in 1988 and was 
amended and extended in 1993 for a ten-year period, through June 14 of 
this year. In 2002, the United States and the Pacific Island Parties 
concluded negotiations to extend the operation of this Treaty for an 
additional ten-year period, through June 14, 2013. The amendments to 
the Treaty and its Annexes will, among other things, enable use of new 
technologies for enforcement, streamline the way amendments to the 
Annexes are agreed, and modify the waters that are open and closed 
under the Treaty. President Bush submitted the amendments to the Treaty 
to the Senate for advice and consent in February 2003. Minor amendments 
to Section 6 of the South Pacific Tuna Act of 1988, Public Law 100-330, 
will be necessary to take account of the Amendment to paragraph 2 of 
Article 3, ``Access to the Treaty Area,'' which permits U.S. longline 
vessels to fish on the high seas of the Treaty Area.
    The Treaty provides considerable economic benefit to all parties, 
with the value of landed tuna contributing between $250 and $400 
million annually to the U.S. economy. Nearly all of this fish is landed 
in American Samoa and processed in two canneries located there, one of 
which is owned by U.S. interests. These canneries provide more than 80 
percent of private sector employment in that territory.

Issues Relating to Particular Species
    Whales and International Whaling Commission (IWC) issues. The 
United States supports the IWC's commercial whaling moratorium, and 
opposes lethal scientific/research whaling, whaling within the 
sanctuaries established by the IWC, and international trade in whale 
products. We continue to support aboriginal subsistence whaling. In 
addition, we support active work on science and progress on the Revised 
Management Scheme (the management scheme that would apply if the 
commercial moratorium were ever lifted). In 2003, the United States 
will continue to monitor the whaling activities of Japan and Norway. We 
will also monitor the activities of Iceland, which is now a member of 
the IWC with a reservation to the moratorium on commercial whaling. In 
particular, we are concerned that Iceland may begin a research whaling 
program later this summer. The United States is disappointed that 
Iceland has joined the IWC with a reservation to the moratorium, but we 
recognize Iceland as a party to the International Convention for the 
Regulation of Whaling. We are also monitoring international trade in 
whale products since Norway resumed such trade during 2002, sending 
about 38,000 kilograms to Iceland. This year Norway may export whale 
products to Japan and the Faroe Islands. The next IWC meeting is 
scheduled for the week of June 16-19, 2003 in Berlin, Germany.
    Sea turtles. Section 609 of Public Law 101-162 prohibits the 
importation of shrimp and products of shrimp harvested in a manner that 
may adversely affect sea turtle species. By May 1 of each year, the 
Department certifies to Congress those nations meeting criteria set 
forth in the statute relating to the protection of sea turtles in the 
course of shrimp trawl fishing. In 2003, we certified 39 nations and 
one economy (Hong Kong) as meeting the requirements of Section 609. 
Haiti did not meet certification requirements for 2002 and Indonesia 
remained uncertified from the previous year. Earlier in 2003, we 
removed Honduras and Venezuela from the list of certified countries.
    The United States is a leading participant in two groundbreaking 
international agreements to protect sea turtles, one in the Americas 
and another in the Indian Ocean region. Although both regimes are just 
getting off the ground, they hold considerable promise for reversing 
the declines of these endangered species. The Department of State leads 
the U.S. delegation to meetings held pursuant to these agreements. 
Congress has supported these agreements through the appropriations 
process.
    We are also working with NOAA Fisheries and the international 
community in a variety of fora to address the specific problem of the 
bycatch of sea turtles in longline fisheries. In 2002, the Department 
participated in the Second International Fishers' Forum, hosted by the 
Western Pacific Fisheries Management Council in Hawaii. The Department 
also helped sponsor and participated in the International Technical 
Expert Workshop on Marine Turtle Bycatch in Longline Fisheries in 
February 2003 in Seattle. In February 2003, we secured a commitment of 
FAO to convene an international technical consultation among members of 
FAO on the bycatch of sea turtles in longline and other commercial 
fisheries. The Department views this as the next step in a global 
campaign to seek solutions to this serious problem. In advance of that 
meeting, however, we are considering ways to work within some regional 
fisheries management organization (RFMOs), such as the Inter-American 
Tropical Tuna Commission (IATTC), to provide input from those 
organizations into that process.
    Tuna/dolphin. Following enactment of the 1997 International Dolphin 
Conservation Program Act, the United States and other countries whose 
vessels participate in the purse seine tuna fishery of the Eastern 
Pacific Ocean entered into negotiations to create an effective, binding 
agreement to protect dolphins from harm in this fishery. The resulting 
1999 Agreement, which built on an earlier voluntary regime, has been a 
solid success, bringing observed dolphin mortalities down to extremely 
low levels through the use of proper incentives for vessel captains and 
a strong oversight program that includes mechanisms for transparency 
otherwise unknown in the field of international fisheries. Under the 
resulting 1999 Agreement and the earlier voluntary regime, dolphin 
mortalities have been reduced more than 98 percent from as recently as 
1987.
    We are aware of concerns regarding the level of compliance with 
this Agreement by some fishing countries. While the level of reported 
infractions represents a small percentage of overall activity under the 
Agreement, the Departments of State and Commerce are working with the 
other participants in the International Dolphin Conservation Program to 
address these concerns and to ensure that compliance with the Agreement 
is at the highest possible level. It should be noted, however, that the 
other countries whose vessels operate in this fishery entered into the 
1999 Agreement with the expectation that the United States would adopt 
a new definition of ``dolphin-safe'' tuna. However, the International 
Dolphin Conservation Program Act made such a change in definition 
contingent on the outcome of certain studies and a finding by the 
Secretary of Commerce, a matter that remains in litigation.

FAO Initiatives
    The United Nations Food and Agriculture Organization (FAO) 
Committee on Fisheries (COFI) held its 25th meeting in Rome February 
24-28, 2003. Major achievements include a strong work program for the 
next biennium on illegal, unreported and unregulated (IUU) fishing 
within FAO, agreement on the need for a government meeting on sea 
turtle interactions with fishing gear, and the adoption of a strategy 
to improve fisheries data collection and reporting. In addition, FAO 
made progress on the U.S. led initiative to foster cooperation between 
FAO and CITES, though outstanding divisions led COFI to establish an 
open-ended informal group to continue work on this issue.
    The United States is leading an effort in FAO to strengthen 
implementation of the four FAO International Plans of Action (IPAO), in 
particular the IUU and capacity reduction Plans. In support of the IPOA 
on IUU fishing, we are now in the process of finalizing the U.S. 
national plan of action on IUU, which will serve as a model for other 
countries. We are also contributing resources and technical expertise 
to an FAO conference on fisheries enforcement to be held in Malaysia in 
2004, one goal of which is to provide practical training for and 
increased cooperation between fisheries enforcement professionals in 
developing countries. Working through the U.S. Joint Subcommittee on 
Aquaculture, the United States will be actively engaged in the new FAO 
work program on aquaculture with a view to improving the environmental 
and economic sustainability of the sector. Our colleagues in the 
Department of Commerce will be discussing U.S. activities relating to 
capacity reduction efforts in the FAO and elsewhere.
    FAO will host a major conference on deep-sea fisheries in New 
Zealand in December 2003. Deep-sea fisheries take place in some of the 
least understood ecosystems on the planet. Although available 
technology allows fishing vessels to operate around previously 
unreachable seamounts and oceanic ridges, very few international 
agreements are in place to provide a basis for managing these fisheries 
effectively, and very few if any management measures for these 
fisheries have been adopted.

WTO and fish subsidies
    The Administration is pleased with the progress being made at the 
WTO on reducing or eliminating subsidies that contribute to 
overfishing, given the correlation between certain forms of subsidies 
to the fisheries sector and problems of overcapacity and IUU fishing. 
On the details of the negotiations and the U.S. strategy for achieving 
our objectives in the Doha Development Agenda, we will defer to the 
Department of Commerce.

White Water to Blue Water Initiative
    This partnership initiative, launched in 2002 at the World Summit 
on Sustainable Development, involves U.S. Federal agencies, the United 
Kingdom, France, Canada and the Netherlands, Caribbean governments, the 
Caribbean Environment Program, CARICOM, other international 
organizations, non-governmental organizations and the private sector. 
The partnership initiative is designed to integrate the management of 
watershed, coastal and marine resources in the Wider Caribbean region, 
beginning with upstream sectors (watersheds, inland forests, 
agricultural areas and population centers) and extending through 
wetlands, mangrove swamps and coral reefs into the ocean. It aims to 
improve capabilities of coastal States to manage watershed and coastal-
marine ecosystems for sustainable development. We also seek to promote 
regional coordination among the partners to increase economies and 
efficiencies. National teams from government, civil society and the 
private sector will participate in a March 2004 conference in Miami 
designed to identify new partnerships and provide technical training. 
We hope that the initiative may later be adapted for other regions, 
such as Africa and the South Pacific.

CONCLUSION
    Thank you very much for this opportunity to address the 
Subcommittee. I would be pleased to try to answer any questions that 
you may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Madam Ambassador.
    Dr. Hogarth.

 STATEMENT OF DR. WILLIAM T. HOGARTH, ASSISTANT ADMINISTRATOR 
  FOR FISHERIES, NATIONAL MARINE FISHERIES SERVICE, NATIONAL 
  OCEANIC AND ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF 
                            COMMERCE

    Dr. Hogarth. Thank you, Mr. Chairman, Members of the 
Subcommittee. It is nice to be here again to present testimony 
on topic related to international fishery conservation and 
management.
    I do believe that NOAA Fisheries and their Federal partners 
at the Department of Interior and the State Department, working 
in concert with state, tribal, and other Native American 
groups, have and continue to accomplish an impressive program 
of international living marine resource conservation and 
management. I would like to emphasize, however, that the 
problems and challenges we are addressing in domestic fisheries 
management are the same ones that we have to address 
internationally. Indeed, many of these problems, including the 
management needs of highly migratory species, salmonids, 
straddling and shared fish stocks, and many protected species 
stocks cannot be effectively addressed here in the U.S. in the 
absence of international cooperation.
    These problems and challenges include: eliminating 
overfishing, rebuilding overfish stocks, managing fisheries 
sustainably, recovering protected species, conserving habitats, 
improving the scientific basis of living marine resource 
management, working toward ecosystem-based management, and 
addressing problems of bycatch and overharvesting.
    I will provide an overview of our efforts to address these 
issues in several international fora, including, one, ICCAT, 
which is the International Commission for the Conservation of a 
Atlantic Tunas; two, CCAMLR, which is the Convention for the 
Conservation of Antarctic Marine Living Resources; three, IWC, 
which is International Whaling Commission; and four, NAFO, 
which is Northwest Atlantic Fisheries Organization; and five, 
we are going to talk about international bycatch reduction 
initiatives. My written testimony provides greater detail for 
the topics listed above and includes information on other 
international conservation management issues that may be of 
interest to the Committee.
    ICCAT coordinates the international management of tunas and 
tuna-like species. The primary U.S. objections over the last 
several years have included seeking measures to rebuild 
overfished stocks, improving adherence to the ICCAT rules by 
members and non-embers nations and addressing bycatch issues. 
With regard to rebuilding, we have had a number of successes, 
including the adoption of rebuilding plans of western blue fin 
tuna, North Atlantic swordfish, and blue and white marlin. As 
you know, the sacrifices made to rebuild North Atlantic sword 
fish began to show results last year with the significant 
increase in biomass which led to the increase in quota 
allocations.
    On the compliance front, ICCAT has adopted a variety of 
state-of-the-art measures. ICCAT can and has imposed penalties, 
for example, quota reductions, trade sanctions, against members 
for infractions. These measures have been successful in 
reducing illegal, unregulated, and unreported fishing in the 
convention area. We are in the process now of working on a 
positive list of fishing vessels that will be made available so 
that the nations will only be buying from those vessels who are 
on this positive list, to try to address the problem with those 
unregulated vessels.
    Despite the strides made at ICCAT, particularly over the 
last decade, a number of difficult issues remain, one of which 
is data collection for stock assessments, the stock structure 
of the Atlantic blue fin tuna and ICCAT rebuilding plans, and 
the IUU issues.
    CCAMLR: Due to the scale of IUU fishing for toothfish in 
and beyond waters subject to CCAMLR, a catch documentation 
scheme for toothfish was adopted in 1999. The document 
identifies the origin of toothfish imports, determines if the 
toothfish were harvested consistent with CCAMLR convention 
measures, monitors international trade, and provides catch data 
for stock assessments in the convention area. Although NOAA 
Fisheries have fully implemented the documentation scheme in 
the United States, we have recently published final regulations 
streamlining the administration of the program and enhancing 
efforts to prevent the import of illegal harvested toothfish.
    Effective June 16, 2003, NOAA Fisheries will operate a pre-
approval system for toothfish imports. Pre-approval will allow 
the agency to review toothfish catch documents sufficiently in 
advance of import to facilitate enforcement and provide 
additional economic certainty to U.S. businesses in the 
toothfish trade.
    IWC: NOAA Fisheries has currently preparing for the 55th 
annual meeting of the International Whaling Commission which 
will be held in Berlin June 16th through 19th. The longstanding 
principles that guide U.S. policy at this meeting are that the 
United States supports IWC's commercial whaling moratorium, 
supports aboriginal subsistence whaling, opposes lethal 
research whaling, and opposes the international trade of whale 
products.
    NAFO: NAFO manages groundfish, flatfish, and shellfish in 
the waters of the northwest Atlantic beyond the areas of 
national jurisdiction, many of which are under zero directed 
take regimes. Some of these stocks are rebuilding, and one, the 
yellowtail flounder, has recovered sufficiently to re-establish 
a directed fishery. A U.S. priority with NAFO was to reform 
allocation practices and obtaining greater access for U.S. 
vessels to fish for recovering stocks.
    International bycatch activities: In the September 2000 
Annual Report to Congress on International Bycatch Agreements, 
required by Section 202(h) of the Magnuson-Stevens Fishery 
Conservation and Management Act, NOAA Fisheries concluded and 
the Department of State concurred that seeking international 
agreements with foreign nations conducting pelagic long-line 
fishing operations for Atlantic and Pacific highly migratory 
species was necessary and appropriate to protect endangered and 
threatened sea turtles. An international strategy was developed 
in detail in the June 2001 report to Congress.
    In January 2002, I appointed an interagency International 
Bycatch Reduction Task Force to carry out this strategy. It has 
since been fully integrated into our broader NOAA Fisheries 
National Bycatch Strategy. The task force has prepared a report 
of its activities during the first year of operation. I will be 
happy to provide copies of this report to you when completed.
    H.R. 2048: NOAA Fisheries has no objection to this bill and 
feels that it should be reauthorized.
    H.Res. 30 concerning the San Diego long-range fishing fleet 
and rights for the fishing near the islands in Mexico--I notice 
all of us have avoided trying to say what the island really is. 
We just call it the Mexican islands. I spent 10 minutes 
yesterday trying to get the pronunciation right and decided we 
will just call it the Mexican island.
    The U.S. long-range sportfishing fleet has for nearly 30 
years fished in the waters of the Mexican Biosphere Reserve. 
The activity has been estimated to provide about $5.5 million 
in benefits to the U.S. economy annually and $2.9 million to 
the Mexican economy. In addition, the U.S. fleet every 
Christmas will take a boat-load of supplies down to the islands 
where they fish to the local community, such as food and 
Christmas gifts, in addition to the other things that they do 
for fishing there.
    In 1994, the Mexican president created by decree the 
Biosphere Reserve, and this decree established a nucleus zone 
or core zone of six nautical miles around the four islands of 
the reserve. Sportfishing, as Congressman Cunningham said, was 
permitted to continue in the reserve to within 500 meters. The 
1994 decree also provided for the development of a management 
plan. However, in March 2002, the Federal Attorney's Office for 
Environmental Protection in Mexico ruled that no fishing could 
take place in the biosphere reserve nucleus zone and noted that 
a December 1996 amendment to the Mexican environmental law 
prohibited fishing in the nucleus zone of a biosphere reserve.
    The Government of Mexico then revoked the permits that had 
been issued to the U.S. sportfishing vessels to fish within the 
500 meters of shore at the reserve. U.S. recreational operators 
claimed that their fishing operations do not have a significant 
impact on the species and habitats of concern to the reserve 
and have asked the U.S. Government to help resolve the matter. 
As part of that effort and in compliance with a request for 
Congress, NOAA Fisheries is preparing a report to Congress that 
will address the issues surrounding sportfishing in the 
reserve.
    In addition, Secretary Evans has had several conversations 
with the secretary in Mexico. We are aware of the 
correspondence, and we are trying to work through it. The 
problem we are having there is it has been taken away from 
fisheries, and our dealings with the fishery agency of Mexico 
has now gone to the Navy for enforcement basically. So we are 
trying to work with the State Department and work with the 
Ambassador to see if we can work with Mexico on the management 
plan, if we can support this or whatever needs to be done to 
try to get this fishery open.
    Thank you, Mr. Chairman, for this opportunity to review how 
NOAA Fisheries is conducting the tasks assigned to it pursuant 
to the many international fishery treaties and conventions in 
which the United States is involved. We are committed to 
working with our state and Federal partners for the effective 
management of our Nation's fishery resources.
    Mr. Chairman, this concludes my testimony, and I will be 
happy to respond to any questions.
    [The prepared statement of Dr. Hogarth follows:]

  Statement of William T. Hogarth, Ph.D., Assistant Administrator for 
  Fisheries, National Marine Fisheries Service, National Oceanic and 
        Atmospheric Administration, U.S. Department of Commerce

    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me to this hearing to present testimony on topics related to 
international fishery conservation and management. I am William T. 
Hogarth, the Assistant Administrator for Fisheries in the National 
Oceanic and Atmospheric Administration, Department of Commerce.
    I believe NOAA Fisheries and our Federal partners at the Department 
of the Interior and the State Department, working in concert with 
state, tribal, and other Native American groups, have and are 
continuing to accomplish an impressive program of international living 
marine resource conservation and management.
    I would like to emphasize, however, that the problems and 
challenges we are addressing in domestic fisheries management are the 
same ones we are addressing internationally. Indeed, many of these 
problems, including the management needs of highly migratory species, 
salmonid, straddling, and shared fish stocks and many protected species 
stocks cannot be effectively addressed at home in the absence of 
international cooperation. These problems and challenges include 
eliminating overfishing, rebuilding overfished stocks, managing 
fisheries sustainably, recovering protected species, conserving 
habitats, improving the scientific basis of living marine resource 
management working toward ecosystem-based management, and addressing 
problems of bycatch and harvesting capacity. I will provide an overview 
of our efforts to address these issues in several international fora 
including (1) ICCAT (International Commission for the Conservation of 
Atlantic Tunas), (2) CCAMLR (Convention on the Conservation of 
Antarctic Marine Living Resources), (3) IWC (International Whaling 
Commission), (4) NAFO (Northwest Atlantic Fisheries Organization), (5) 
FAO (Food and Agriculture Organization of the United Nations), (6) WTO 
(World Trade Organization), and (7) CITES (Convention on International 
Trade in Endangered Species of Wild Fauna and Flora).

ICCAT (International Commission for the Conservation of Atlantic Tunas)
    ICCAT coordinates the international management of tunas and tuna-
like species. The organization currently has 35 members. Primary U.S. 
objectives over the last several years have included seeking measures 
to rebuild overfished stocks and improve adherence to ICCAT rules by 
members and non-members. Seeking measures to address bycatch issues has 
also been a focus of the United States.
    With regard to rebuilding, we have had a number of successes, 
including the adoption of rebuilding plans for western bluefin tuna 
(1998), North Atlantic swordfish (1999) and blue and white marlins 
(2000). As you may know, the sacrifices made to rebuild North Atlantic 
swordfish began to show results last year with a significant increase 
in biomass which led to increases in quota allocations. On the 
compliance front, ICCAT has adopted a variety of state-of-the-art 
measures. ICCAT can and has imposed penalties (e.g., quota reductions, 
trade sanctions) against members for infractions. The Commission has 
also adopted action plans that contemplate the use of trade sanctions 
against countries that diminish the effectiveness of ICCAT, and 
sanctions have been imposed in several instances. These measures have 
been successful in reducing illegal, unregulated, and unreported (IUU) 
fishing in the Convention area. Most recently in its fight against IUU 
fishing, ICCAT adopted a vessel list program that provides a basis to 
limit market access to only those products taken by authorized vessels.
    Regarding bycatch issues, ICCAT has adopted proposals to improve 
data collection and reporting on sharks and seabirds and is considering 
a similar proposal concerning sea turtles. The latter will be on the 
agenda for the 2003 ICCAT meeting. Regarding sharks, an assessment is 
planned for 2004. The ICCAT measure also encourages releasing sharks 
taken as bycatch, and minimizing shark waste and discards.
    Despite the strides made at ICCAT, particularly over the last 
decade, a number of difficult issues remain. Data collection and 
reporting continue to be a challenge for some parties, and a special 
meeting will be held in the fall 2003 to consider this matter. 
Moreover, the stock structure of Atlantic bluefin tuna, currently 
managed as two separate stocks, remains in question and ICCAT agreed to 
convene a meeting of scientists and managers in November 2003 to look 
into this issue. In addition, ensuring ICCAT rebuilding plans stay on 
course and that new programs are developed for other overfished stocks 
(such as bigeye tuna) will be important. Also, we intend to ensure that 
ICCAT continues to make needed progress in improving member compliance 
and non-member cooperation, including addressing IUU issues.
    With respect to compliance issues in ICCAT fisheries, the Secretary 
of Commerce recently (April 25, 2003) sent letters to the European 
Commission (EC) [namely, Commissioner for Trade Pascal Lamy and 
Commissioner for Agriculture, Rural Development, and Fisheries Franz 
Fischler]. Secretary Evans noted the importance of the conservation of 
marine fisheries and expressed concern about actions and positions 
taken by the EC at ICCAT in 2002--particularly regarding EC support of 
an eastern bluefin tuna total allowable catch far in excess of 
scientifically recommended, sustainable levels. Secretary Evans stated 
that positions such as these have the potential to threaten the long-
term future of shared resources and to lead to serious friction in 
U.S.- EC trade relations. As an example, the Secretary pointed to a 
petition filed by a recreational fishing organization under Section 301 
of the Trade Act of 1974 that sought relief from allegedly 
unjustifiable acts, policies, and practices of the EC related to ICCAT. 
This petition was withdrawn. In his letter, the Secretary urged the EC 
to take prompt action to improve EC compliance with existing ICCAT 
measures and to reconsider accepting science-based conservation 
measures in the future.
    In addition to this action, NOAA Fisheries has received a request 
to certify the EC pursuant to the Pelly Amendment to the Fishermen's 
Protective Act of 1967 for diminishing the effectiveness of ICCAT. The 
decision on certification has been left open for the time being while 
we monitor the activities of the EC and its Member States. In this 
regard, I recently sent a letter to the EC Director General for 
Fisheries explaining the request, noting its seriousness, and 
indicating that I intend to investigate it fully. I have also been in 
contact with the head of the EC delegation to ICCAT concerning this 
matter, and we will continue our dialogue at the upcoming ICCAT 
intersessional meetings in Madeira in late May 2003. I have been 
stressing the importance of EC implementation of its ICCAT commitments 
and will continue to do so.

CCAMLR (Convention on the Conservation of Antarctic Marine Living 
        Resources)
    Due to the scale of IUU fishing for toothfish in and beyond waters 
subject to CCAMLR, a Catch Documentation Scheme (CDS) for toothfish was 
adopted in 1999. The CDS identifies the origin of toothfish imports, 
determines if the toothfish were harvested consistent with CCAMLR 
conservation measures, monitors international trade, and provides catch 
data for stock assessments in the Convention Area. Although NOAA 
Fisheries has fully implemented the CDS in the United States, it 
recently published final regulations streamlining administration of the 
program and enhancing efforts to prevent the import of illegally 
harvested toothfish. Effective June 16, 2003, NOAA Fisheries will 
operate a pre-approval system for toothfish imports. Pre-approval will 
allow the agency to review toothfish catch documents sufficiently in 
advance of import to facilitate enforcement and provide additional 
economic certainty to U.S. businesses in the toothfish trade.
    Scientific information provided to CCAMLR has indicated high levels 
of IUU fishing in the Convention Area. The majority of CCAMLR Members 
agreed that catches reported as harvests from FAO Statistical Areas 51 
and 57, high sea areas in the Indian Ocean adjoining the Convention 
Area, were not credible and were in all likelihood fish pirated from 
within the Convention Area. They also expressed concerns, shared by the 
United States, that information reported in catch documents did not 
match scientific understanding of toothfish distribution and potential 
biomass of toothfish on the high seas. Therefore, also as of June 16, 
2003, no imports of fresh or frozen toothfish represented as harvested 
within FAO Areas 51 or 57 will be allowed entry into the United States. 
Importers applying for a pre-approval certificate for fish that has 
been harvested from either of these areas will be denied pre-approval.

IWC (International Whaling Commission)
    The 55th Annual Meeting of the International Whaling Commission 
(IWC) will be held in Berlin June 16th through 19th. The longstanding 
principles that will guide United States policy at this meeting are 
that the United States supports the IWC's commercial whaling 
moratorium, supports aboriginal subsistence whaling, opposes lethal 
research whaling, and opposes the international trade of whale 
products.
    Iceland recently rejoined the IWC with a reservation to the 
commercial whaling moratorium. The U.S. accepts Iceland as a member of 
the Commission, but is disappointed Iceland conditioned its membership 
with a reservation. In addition, Iceland recently submitted to the IWC 
a plan to conduct lethal research on whales. The United States opposes 
lethal research and urge Iceland not to begin this program. Likewise, 
Japan continues to conduct lethal research with the take of up to 700 
whales per year. The United States continues to urge Japan to cease the 
killing of whales under scientific permits. Germany will put forth a 
resolution on scientific whaling that we intend to support.
    In addition, Norway and Iceland have initiated the first 
international trade of whale products in 14 years. The U.S. has urged 
both countries to halt this trade. Last year, Japan submitted a 
resolution for the consideration of Japanese community-based whaling. 
This resolution contained a marked change from previous proposals 
whereby the quota would be non-commercial, and based on the advice of 
the Scientific Committee. Japan is expected to present a proposal 
regarding this matter. The U.S. has not yet seen this proposal, but 
will only consider supporting it if these two criteria (non-
commercial--i.e., the proposal would establish sufficient safeguards to 
ensure that whales that would be taken under the program are not used 
for commercial purposes--and based upon the advice of the IWC 
Scientific Committee), at a minimum, are met.
    Mexico plans to put forward a resolution to create a Conservation 
Committee that is meant to reaffirm the conservation objective of the 
Convention. The U.S. intends to support the creation of this committee 
as it would improve the governance of the Commission's conservation 
work.
    Italy intends to put forth a resolution on bycatch of whales. The 
U.S. intends to support this resolution since we recognize bycatch as a 
serious conservation issue and it would be synergistic with the 
National Bycatch Strategy recently issued by NOAA Fisheries.
    The U.S. continues to work in good faith to establish a Revised 
Management Scheme (RMS) for commercial whaling. However, the last round 
of working group meetings were disappointing in that representatives of 
the whaling nations and their supporters did not accept any compromise 
put forth by the United States and others. The United States has 
repeatedly demonstrated its willingness to develop a science-based and 
enforceable RMS. Our efforts, however, have been thwarted by the pro-
whaling nations, which, to date, have been unwilling to agree to the 
incorporation of adequate monitoring measures into the RMS. At the 
annual meeting, Japan will likely put forth a proposal on the RMS. 
Japan's proposal last year lacked the necessary components for a 
credible scheme and would have eliminated the commercial whaling 
moratorium and whale sanctuaries.
    Finally, the U.S. intends to support Australia and New Zealand in 
their proposal to establish a South Pacific Sanctuary, and Brazil's 
proposal to establish a South Atlantic Sanctuary. Both of these 
sanctuary proposals are science-based and would help the recovery of 
depleted whale stocks.

NAFO (Northwest Atlantic Fisheries Organization)
    NAFO manages groundfish, flatfish, and shellfish in the waters of 
the northwest Atlantic beyond areas of national jurisdiction, many of 
which are under zero directed take regimes. Some of these stocks are 
rebuilding and one, yellowtail flounder, has recovered sufficiently to 
reestablish a directed fishery. A U.S. priority within NAFO is to 
reform allocation practices and obtain greater access for U.S. vessels 
to fish for recovering stocks. NOAA Fisheries hosted a NAFO Working 
Group meeting in Miami earlier this year to press for more progress in 
this area, but progress has been slow. On the other hand, we have made 
considerable progress within NAFO on transparency, implementing a risk-
based approach, effectively dealing with problems of fishing by non-
members, and upgrading NAFO mechanisms and processes for monitoring 
compliance by NAFO members. Nevertheless, the issue of obtaining 
benefits for U.S. fishermen commensurate with the considerable 
financial and other contributions the United States makes to NAFO has 
led us to begin a reassessment of our proper role within NAFO.
    NOAA has provided leadership on U.S. delegations to NAFO meetings 
since the United States joined NAFO in 1996, and NOAA Fisheries 
provides a required annual report to Congress on U.S. activities 
concerning NAFO.

COFI/Capacity (Committee on Fisheries, Food and Agriculture 
        Organization of the United Nations)
    A major and common problem that plagues a large number of domestic 
and world fisheries is overcapacity in the harvesting sector. The 
United States has recognized this global problem for more than a decade 
and has worked for years to address the issue of overcapacity in the 
harvesting sector through technical and policy-level consultations held 
under the sponsorship of FAO. Accordingly, we agreed in 1997 to 
consultations leading to an international plan of action for the 
management of fishing capacity (IPOA) and joined all the other FAO 
Members in approving the IPOA on this subject in 1999. NOAA Fisheries 
played an active role in the technical and policy-level meetings to 
bring these negotiations to a successful conclusion. In particular, I 
would like to single out the efforts of NOAA Fisheries technical 
experts who developed definitions and measures of capacity and 
overcapacity for marine capture fisheries that were later endorsed by 
FAO and have become the world standards.
    The IPOA for the management of fishing capacity included a 
provision calling on all signatories to develop a national plan of 
action for the management of fishing capacity, and NOAA Fisheries has 
been working on this task for the last few years. Crafting a national 
plan of action for the management of fishing capacity has been a 
challenge. The Magnuson-Stevens Fishery Conservation and Management Act 
does not mandate the regulation of fishing capacity, and certain tools 
that would enable the Councils and NOAA Fisheries to manage capacity 
were either legally unavailable--in the case of individual fishing 
quotas until October 2002--or were untried and therefore untested--in 
the case of Fishing Capacity Reduction Programs under Section 312(b)-
(e). Nevertheless, NOAA Fisheries has prepared a draft national plan of 
action that we believe is consistent with our legal mandates and 
authorities.
    Our national plan of action has gone through internal and public 
review. We are in the process of making changes in response to comments 
provided by our constituents through a Federal Register notice of 
availability. The comment period closed in March of this year. We 
expect to send the final plan to FAO this year.
    The United States, through the Committee on Fisheries (COFI), also 
provided leadership in the development of IPOAs regarding seabirds, 
sharks, and IUU fishing. The United States has completed development of 
its NPOAs relative to seabirds and sharks and has developed a draft 
NPOA on IUU fishing, which was presented at COFI earlier this year.

CITES (Convention on International Trade in Endangered Species of Wild 
        Fauna and Flora)
    The United States continues to believe that CITES can serve as a 
useful adjunct to traditional fisheries management through its 
comprehensive permitting and trade control protocols. Such systems can 
deter IUU fishing and assist in promoting domestic management programs 
for commercially exploited marine species. CITES was designed to 
support sustainable international trade in fauna and flora, but is not 
a substitute for complementary scientific management and domestic 
regulation of fishery resources. In instances where no RFMO is in place 
(as is the case with queen conch and sturgeon), a CITES listing can 
encourage the establishment of regional management mechanisms. In the 
case of queen conch (listed in 1992), since 1996, NOAA-Fisheries and 
the Caribbean Fishery Management Council have organized the 
International Queen Conch Initiative, which provides a forum for 
countries in the Wider Caribbean to develop coordinated approaches to 
regional management of the species. In the case of sturgeon (listed in 
1997), regional cooperation among range States has led to the setting 
of intergovernmental quotas for sturgeon species in the Caspian Sea 
region. Closer cooperation between CITES and FAO should further 
strengthen these efforts, as FAO is experienced in supporting regional 
fisheries management organizations in developing regions of the world.
    The United States has also supported cooperative efforts between 
CITES and CCAMLR to improve the management and enforcement of measures 
taken to conserve toothfish and potentially other Southern Ocean 
species. In addition, the United States continues to advocate the 
continued linkage of CITES listings with actions taken by the IWC to 
conserve whale stocks, such that the applicable trade prohibitions 
under CITES reflect the decisions on commercial whaling established by 
the recognized international management authority.

Fish Subsidies
    Many commercially-traded fish stocks are fully exploited or over 
exploited. While it is generally acknowledged that ineffective or 
poorly enforced management regimes in global fisheries are the 
principal culprits in the decline of certain stocks, there is reason to 
believe that global levels of subsidies (estimated at between $10-15 
billion) have exacerbated the problem. For this reason, World Trade 
Organization (WTO) Ministers agreed in Doha, Qatar in December 2001 to 
clarify and improve existing WTO rules on fisheries subsidies. The 
World Summit on Sustainable Development (WSSD), held in Johannesburg 
South Africa in September 2002, further committed the global community 
to reduce and eliminate subsidies that lead to overcapacity and 
overfishing.
    The United States has actively supported and contributed to work on 
fisheries subsidies in a variety of fora, and has long advocated WTO 
action on this issue. We believe that the fisheries subsidies 
negotiations are an important part of the WTO's commitment to making 
trade, development, and environmental policies mutually supportive: in 
other words, a demonstration that trade liberalization is a ``win-win-
win.'' We have therefore been working hard in Geneva, along with a 
group of like-minded countries, known as the ``friends of fish,'' to 
fulfill the Doha mandate and establish better disciplines on fisheries 
subsidies. Although a few countries (Japan and Korea, most vocally) 
have slowed the negotiations somewhat, progress toward a successful 
conclusion is being made.

International Bycatch Reduction Activities
    In the September 2000 Annual Report to Congress on International 
Bycatch Agreements, required by Section 202(h) of the Magnuson-Stevens 
Fishery Conservation and Management Act, NOAA Fisheries concluded, and 
the Department of State concurred, that seeking international 
agreements with foreign nations conducting pelagic longline fishing 
operations for Atlantic and Pacific highly migratory species was 
necessary and appropriate to protect endangered and threatened sea 
turtles. An international strategy was developed and detailed in the 
June 2001 Report to Congress.
    In January 2002, I appointed an interagency International Bycatch 
Reduction Task Force to carry out the strategy. Although the initial 
focus of this effort was to reduce sea turtle bycatch in longline 
fisheries internationally, it also took on responsibilities relating to 
bycatch issues involving sharks and seabirds. It has since been fully 
integrated into our broader NOAA Fisheries National Bycatch Strategy. 
We continue to host and participate in international working groups in 
support of bycatch mitigation. A few examples of these include:
    <bullet> Participation and financial support for the Second 
International Fishermen's Forum in November 2002, which focused on sea 
turtle and seabird bycatch mitigation;
    <bullet> Planning and hosting an international technical workshop 
on reducing sea turtle interactions with longline gear in February 
2003, in Seattle, Washington;
    <bullet> Planning for an interdisciplinary workshop to be co-
sponsored by the International Center for Living Aquatic Marine 
Resource Management and others on the conservation needs of sea turtles 
in the Pacific Basin, planned for November 2003 in Bellagio, Italy;
    <bullet> Participating in and financially supporting an Asia-
Pacific Economic Forum Fisheries Working Group Shark Workshop, which 
included bycatch issues, in Huatulco, Mexico in December 2002; and
    <bullet> Securing State Department funding to support the meeting 
of the Parties to the First Inter-American Sea Turtle Convention, to be 
held in San Jose, Costa Rica, in August 2003.
    Mr. Chairman, the Task Force is preparing a report of its 
activities during the first year of operation, and I would be happy to 
provide copies of it when completed.

H.R. 2048 (International Fisheries Reauthorization Act of 2003)
    H.R. 2048 would extend the period for reimbursement under the 
Fishermen's Protective Act and would reauthorize the Yukon River 
Restoration and Enhancement Fund. NOAA Fisheries has no objection to 
the bill.

H.RES 30 (Concerning the San Diego long-range sportfishing fleet and 
        rights to fish the waters near the Revillagigedo Islands of 
        Mexico)
    The U.S. long-range sportfishing fleet has for at least the last 
thirty years fished in the waters of the Revillagigedo Islands. This 
activity has been estimated to provide about $5.5 million in benefits 
to the U.S. economy and an additional $2.9 million to the Mexican 
economy annually.
    In 1994, Mexico's president created by decree the Revillagigedo 
Archipelago Biosphere Reserve. The decree established a ``nucleus 
zone'' or ``core zone'' of six nautical miles around the four islands 
in the Reserve. Sportfishing, however, was permitted to continue in the 
Reserve to within 500 meters. The 1994 decree also provided for the 
development of a management plan.
    In March 2002, the Federal Attorney's Office for Environmental 
Protection (PROFEPA) in Mexico ruled that no fishing could take place 
in a biosphere reserve ``nucleus zone,'' noting a December 1996 
amendment to Mexican environmental law that prohibited fishing in 
``nucleus zones'' of a biosphere reserve. The Government of Mexico then 
revoked the permits that had been issued to U.S. sportfishing vessels 
to fish to within 500 meters (m) of shore at the Reserve.
    U.S. recreational operators claim that their fishing operations do 
not have a significant impact on the species and habitats of concern to 
the reserve and have asked the U.S. government to help resolve the 
matter. As a part of that effort and in compliance with a request from 
Congress, NOAA Fisheries is preparing a Report to Congress that will 
address the issues surrounding sportfishing in the reserve.
    Thank you, Mr. Chairman, for this opportunity to review how NOAA 
Fisheries is conducting the tasks assigned it pursuant to the many 
international fisheries' treaties and conventions with which the United 
States is involved. We are committed to working with our state and 
Federal partners for the effective management of our Nation's fisheries 
resources. Mr. Chairman, this concludes my testimony. I am prepared to 
respond to any questions Members of the Subcommittee may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Dr. Hogarth.
    Mr. Jones.

STATEMENT OF MARSHALL P. JONES, JR., DEPUTY DIRECTOR, FISH AND 
       WILDLIFE SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Jones. Thank you, Mr. Chairman and Members of the 
Subcommittee. Thank you for the opportunity to be here with my 
colleagues from NOAA Fisheries and the Department of State to 
provide the testimony of the U.S. Fish and Wildlife Service on 
H.R. 2048 and also on the pending U.S.-Russia Polar Bear 
Agreement. I am Marshall Jones, the Deputy Director of the Fish 
and Wildlife Service.
    Mr. Chairman, salmon know no borders, not only in the open 
ocean, but also when their spawning streams cross from the 
United States into Canada. In March of 2001, after 16 years of 
sometimes painful deliberations, the United States and Canada 
reached agreement on catch shares and conservation measures for 
Canadian-origin salmon harvested by both United States and 
Canadian fisherman in the Yukon River.
    The Yukon River Salmon Agreement, which amended the Pacific 
Salmon Treaty, was signed in December 2002. The agreement 
establishes a restoration and enhancement fund to support 
projects conducted by residents and fishermen either in the 
United States or in Canada that contribute to the restoration, 
conservation, enhancement, and stewardship of Canadian-origin 
salmon. The U.S. Fish and Wildlife Service participated in 
these negotiations and is now working with the State of Alaska, 
the U.S. fishing community, native organizations as well as the 
Department of Commerce, Canada, Department of State to rebuild 
depressed Canadian-origin salmon populations and to protect and 
restore spawning and rearing habitats in Canada.
    Mr. Chairman, as Ambassador West noted, we also have a 
technical correction that we would like to offer to H.R. 2048 
which affects which agreement is referred to since there was 
both a 1995 interim agreement and legislation for that and then 
a subsequent 2000 legislation which addressed the final 
agreement. We look forward to working with you and this 
Committee as you work to reauthorize this important 
legislation.
    Mr. Chairman, we also appreciate the opportunity to testify 
today on the U.S.-Russia Polar Bear Agreement. The United 
States and Russia share the Bering-Chukchi Sea Polar Bear 
population which is now facing significant unregulated harvest. 
Although a 1956 ban on hunting polar bears in the former USSR 
is still in effect today in Russia, harvest is now occurring at 
a level that when combined with the legal subsistence harvest 
in Alaska, may soon deplete the shared polar bear population.
    In recognition of the need for unified management of the 
Bering-Chukchi Sea polar bear population, the United States and 
representatives of the Russian Federation negotiated a 
bilateral agreement on the conservation and management of this 
population, which was signed in Washington, D.C. in October of 
2000. The primary purpose of the polar bear agreement is to 
ensure long-term science-based conservation of this shared 
Alaska-Chukotka polar bear population and particularly to 
reconcile the widely different harvest management regimes and 
practices in the United States and Russia. The agreement 
creates a management framework to ensure a viable population in 
the future.
    The Administration submitted this agreement to the U.S. 
Senate for advice on consent in July of 2002. The 
Administration is now considering draft legislation to 
implement the agreement which is undergoing review by the 
various agencies within the Administration involved with the 
process. This agreement and the implementing legislation would 
represent a major step forward for polar bear conservation and 
would enhance our collaborate efforts with Russia to conserve 
our shared natural resources. We look forward to working with 
this Subcommittee to ensure the introduction and passage of the 
implementing legislation.
    Mr. Chairman, in closing, I would like to state that this 
Administration is committed to conserving and managing salmon 
and polar bears by working closely with our partners in a 
cooperative fashion. In particular, I want to emphasize the 
commitment and the continued collaboration between U.S. and 
Canadian fishermen, the State of Alaska, and especially our 
partners in the Alaska Native community to conserve and manage 
these species. We believe we can be more effective at 
addressing our conservation responsibilities, and we look 
forward to working with you, Members of the Subcommittee, to 
reauthorize the Yukon River Salmon Act and to implement the 
U.S.-Russia Polar Bear Agreement during this session of 
Congress.
    Mr. Chairman, with your permission, I would submit my 
written testimony for the record, and I would be happy to 
answer any questions you have.
    [The prepared statement of Mr. Jones follows:]

    Statement of Marshall Jones, Deputy Director, Fish and Wildlife 
                Service, U.S. Department of the Interior

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to provide the testimony of the U.S. Fish and Wildlife 
Service regarding H.R. 2048, the ``International Fisheries 
Reauthorization Act of 2003'' and the U.S.-Russian Polar Bear 
Agreement. I am Marshall Jones, Deputy Director of the U.S. Fish and 
Wildlife Service.
    We look forward to working with the Subcommittee to reauthorize the 
Yukon River Salmon Act of 2000 and with regards to ratifying and 
developing implementing legislation for the U.S.-Russia Polar Bear 
Agreement.

H.R. 2048
    After 16 years of deliberation between the U.S. and Canada, 
negotiators reached an agreement in March 2001, on catch shares and 
conservation measures for Canadian-origin salmon harvested by U.S. and 
Canadian fishers. The Agreement, which amends Annex I and IV of the 
Pacific Salmon Treaty, was signed as an Executive Agreement at a 
ceremony in Washington D.C. in December 2002.
    The Agreement establishes a Yukon River Panel, comprised of 
representatives from the U.S. and Canada, to make recommendations to 
management entities on both sides of the border concerning the 
conservation and management of salmon originating in the Yukon River in 
Canada. In the U.S. the Panel consists of a representative of the State 
of Alaska (chair), the Federal Government, and four members from 
communities along the Yukon River. The U.S. Fish and Wildlife Service 
is currently the Federal Government's representative and the alternate 
representative is from NOAA Fisheries. Technical support to the Panel 
is provided by the Joint Technical Committee (JTC) on which the U.S. 
Fish and Wildlife Service has membership.
    The Agreement also establishes the Yukon River Salmon Restoration 
and Enhancement Fund to support projects, on either side of the Alaska-
Yukon border, that contribute to the restoration, conservation, 
enhancement, and stewardship of Canadian-origin salmon. The U.S. agreed 
to make annual contributions of $1.2 million to the Fund beginning in 
Fiscal Year 2002 subject to the availability of appropriations. About 
60 projects are funded annually from this Fund. Projects are conducted 
by Yukon River drainage residents and fishers; agencies do not compete 
for these funds.
    A large portion of Canadian-origin salmon are harvested by U.S. 
fishers; U.S.-origin fish are also harvested by U.S. fishers. 
Fulfilling U.S. commitments of the Agreement requires an enhanced 
understanding of Yukon River salmon stocks to ensure that escapements 
to the Canadian border are achieved without unnecessarily limiting 
harvests of U.S. and Canadian-origin salmon in U.S. waters. The Joint 
Technical Committee is currently developing a joint research and 
monitoring plan for Yukon River salmon stocks to address this need.
    The U.S. Fish and Wildlife Service participated in these 
negotiations and is now working with the State of Alaska, U.S. fishers, 
Department of Commerce, and Canada under the Agreement to rebuild 
depressed Canadian-origin salmon populations and to bolster efforts to 
protect and restore spawning and rearing habitats in Canada.
    The Yukon River Salmon Act of 2000 authorizes $4 million for 
implementing U.S. obligations under the Agreement. We believe that this 
is an important measure and support reauthorization of the Yukon River 
Salmon Act of 2000.

U.S.-Russia Polar Bear Agreement
    Amendments to Section 113(d) of the Marine Mammal Protection Act 
enacted in 1994 authorize the Service, for the United States, to enter 
into negotiations with Russia to enhance the conservation and 
management of polar bear stocks. We have acted on this authorization. 
Since 1990, the Service has worked to improve cooperative research and 
management programs with Russia for the conservation of polar bears. 
Significant progress has been made in this effort. Building on this 
progress, United States and Russian representatives negotiated a 
bilateral agreement on the conservation and management of the shared 
Chukchi/Bering Seas polar bear population in February 1998. That 
agreement was signed by the two nations in Washington, D.C., on October 
16, 2000.
    The proposed U.S.-Russia Agreement would establish a common legal, 
scientific, and administrative framework for the conservation and 
management of the Alaska-Chukotka polar bear population. A particular 
concern addressed by the agreement is the widely different harvest 
provisions and practices of the U.S. and Russia. Despite the 1956 all-
union ban on hunting polar bears in Russia, harvest is now occurring at 
levels that, combined with the legal subsistence harvest in Alaska, 
could deplete the population. While lawful harvest by Alaska Natives 
for subsistence purposes occurs in Alaska, United States law does not 
allow restrictions of this harvest unless a polar bear population 
becomes ``depleted'' under the MMPA. In Russia, the Agreement has been 
approved through their political process; administrative steps 
necessary prior to implementation are underway and will be completed 
soon. When this happens, there will be a need for the coordination of 
harvest restrictions on both sides of the border to prevent an 
unsustainable combined harvest that could lead to the Alaska-Chukotka 
polar bear population becoming depleted under the MMPA and listed under 
the Endangered Species Act. The Agreement will create a management 
framework to prevent this from happening.
    The Administration submitted the Agreement to the United States 
Senate for advice and consent on July 11, 2002, but additional steps 
may need to be taken before the United States Government will proceed 
to bring the Agreement into force: enactment of necessary implementing 
legislation and promulgation of regulations.
    The Administration is preparing draft legislation to implement the 
Agreement, which is undergoing review by the various agencies involved 
with the process. The implementing legislation will be fully consistent 
with the 1973 multilateral agreement on the Conservation of Polar Bears 
and will further the goals of applicable domestic legislation. The 
Agreement and its implementing legislation will represent a major step 
forward for polar bear conservation, and will enhance our collaborative 
efforts with Russia to conserve shared natural resources. We look 
forward to working with the Subcommittee to ensure introduction and 
passage of the implementing legislation.

Conclusion
    Mr. Chairman, in closing, I would like to state that this 
Administration is committed to conserving and managing salmon and polar 
bears by working with our partners in a cooperative fashion. In 
particular, I want to emphasize the commitment to continued 
collaboration with U.S. and Canadian fishers, the State of Alaska, and 
our partners in the Native community to conserve and manage these 
species. We believe we can be more effective at addressing our 
conservation responsibilities, and look forward to working with you and 
members of the Subcommittee and full Committee to reauthorize the Yukon 
River Salmon Act and legislation to implement the U.S.-Russia Polar 
Bear Agreement during this Congress.
    Mr. Chairman, this concludes my remarks. I would be happy to answer 
any questions.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Jones. Without objection the 
rest of your statement will be submitted to the record.
    We, as I said in my earlier testimony, won't scratch the 
surface of the myriad of issues that are facing each one of 
your departments and agencies today, but I would hope that we 
could continue to pursue this over the next coming months as 
some of these agreements come on line, some of them need more 
funding, and some of them we will continue to ask how the U.S. 
Congress can be helpful in implementing this and funding 
sources for this and leveraging through public pronouncements 
that the Congress is angry about this or that and we are going 
to do something about it or we are going to cutoff trade or 
whatever it takes to continue to be an active relentless 
participant in all of these issues.
    The first question I have, I know many members on the dais 
will ask this in a similar or different fashion, and that deals 
with the articles that recently appeared in the ``New York 
Times'', the ``Washington Post'', ``Nature Magazine'', and so 
on talking about the huge depletion of a number of species in 
the world's oceans, and that seemingly runs counter to some of 
the rebuilding measures that we have heard over the last year 
or two. But I would like to, instead of asking specific 
questions about the Canadian analysis or specific species and 
their stock analysis, and I will leave that up to my 
colleagues, I want to ask a little bit more of a conceptual 
philosophical question as to our approach to fisheries 
management.
    The Canadian analysis goes back to the 1950's and they are 
basically saying that if we look at the 1950's status of stock 
report and then we look at the status of stock reports today, 
we are well below what they were in the 1950's, and that is an 
analysis, I guess, to show how far away we are from really 
rebuilding the stock to a sustainable level. Some years ago, I 
read a book by the now famous or infamous, depending on your 
perspective, Farley Mowat, called ``The Sea of Slaughter'', in 
which he went back to the 1500's, 1600's, 1700's, much in 
English or in Great Britain, to determine what the status of 
stock reports were in those centuries based on their 
observations from the fishermen, from the early scientists, and 
so on. And if we went back 500 years ago or 400 or 300, we can 
see that the number of fish species, shore birds, and so on was 
huge compared to what we have today.
    As you go through fisheries analysis and your relationship 
with agreements with the international community, is there any 
baseline upon which you develop data to determine whether a 
stock is sufficiently rebuilt enough or whether a stock is 
sufficiently healthy, and upon which frame of reference do you 
base that or make that decision? Is there some sense that the 
stock is a lot different today than it was in 1950's or in the 
early 1600's?
    I guess if each of you could give a comment on that.
    Dr. Hogarth. I guess I will start. That is a very 
interesting question. I don't think there is any doubt that the 
fishery stocks are probably lower than they were in the 1600's 
or even 1940 or 1950. I think the question is, though, if you 
are going to manage fisheries, you are going to expect a 
reduction in the stock, and if you manage the optimum yield, 50 
percent reduction in a population is sort of--it is accepted. I 
mean, you have got a spawning stockpile mass there, and so you 
would not expect, you know, stocks not to decrease.
    The thing that you have to look at very carefully, though, 
is when it goes below its optimum yield or its maximum, as we 
call it the maximum sustained yield and optimum yield and look 
at the spawning stock biomass, the problem on an international 
basis is getting the data. A lot of these countries don't have 
the expertise or don't have the finances to get data, and that 
is one of the things that concerns me most, is that some of 
these stocks, like bluefin tuna, some of the countries are not 
reporting their data in the manner we think they need to report 
it.
    I have offered and we will have a workshop for ICCAT 
species to talk about data and the data needs to do the stock 
assessment. On an international basis, we do stock assessments 
very similar to the way we do stock assessments in the U.S. So 
we know at the levels at which we should be fishing. For 
example, we put in a rebuilding plan for North Atlantic 
swordfish. They met those criteria. Last year at ICCAT, we were 
able to increase the quota. We were not really happy with that.
    Mr. Gilchrest. If I could interrupt just for a second, Dr. 
Hogarth.
    Dr. Hogarth. Yes.
    Mr. Gilchrest. Would you say--you based those fishing 
agreements with ICCAT on the data that was collected and you 
are dealing with maximum sustainable yield criteria. Would you 
say that the Canadian analysis is a legitimate analysis and 
that some of that needs to be taken into consideration?
    Dr. Hogarth. Well, I think it should be. I mean I think we 
have not been able to look at all the background for which they 
make the analysis, and I would say we do agree if you go 
unregulated, then you are going to have a--we have the fishing 
power now that is capable of rapidly depleting the stock. We do 
realize that on a national basis, international, and even on a 
domestic basis, we have too much capacity. We need to look at 
capacity. That is one issue that even Japan is talking to us 
now about, wanting to know if we will sponsor a workshop 
internationally to look at capacity. There are too many 
longlines, to many purse seines, and we need to be looking at 
the capacity both on an international basis as well as a 
domestic basis.
    So, you know, I think the point of the report is that what 
he said is many of these declines occurred more than 50 years 
ago. A lot of management has been in place, has really 
started--even looking at the U.S., our Sustainable Fishery Act 
of 1996 with the Magnuson-Stevens Act gave us rebuilding plans, 
gave us a 10-year. So a lot of the fishery management has taken 
place over the last 10, 15 years, and this data was based on 
50-years plus ago. So you would expect, if you look at that, 
that the stocks are not--we now, I think, have recognized the 
problem, which I don't think the report gave us credit for, 
that we have to have, you know, scientific surveys. We have to 
get the data on a national basis, which these agreements are 
doing.
    So I think, you know, the same issues that we are dealing 
with domestically, we are dealing with internationally, and I 
think we do need a stock assessment, but we have to have--many 
of these developing countries, have nothing much but fisheries. 
So they want to develop their fisheries, but they don't have 
the infrastructure to then collect the data and things that you 
need to do.
    We are doing more observers on these vessels now to get 
data. We are trying to work with better resolutions to make 
countries come into compliance.
    Mr. Gilchrest. Thank you.
    Ms. Ambassador.
    Ambassador West. Thank you, Mr. Chairman. Let me just pick 
up on a couple of things that Dr. Hogarth has mentioned. I 
think we clearly recognize that there is no doubt that many of 
the world's fish stocks are in serious condition, and as I 
said, we have developed a number of agreements to try to deal 
with it. Some are global. Some are regional.
    The critical challenge facing us right now is to get these 
agreements implemented, to stop illegal fishing in violation of 
the agreements or by vessels of countries that are not party to 
the agreements, and to reduce capacity overall in the world's 
fishing fleets. But another thing we need to remember is 
approximately 90 percent of the world's fish catch is taken 
within 200-mile zones around the world. Many of those zones, 
are off developing countries that don't have the capacity to 
manage and enforce their stocks.
    One of the things we really need to concentrate on in 
addition to making this framework of international agreements 
work, is to help build capacity among developing countries to 
manage and, even more so, to enforce management of the stocks 
in their own zones.
    Thank you.
    Mr. Gilchrest. Thank you very much.
    Mr. Jones, I was going to yield to Mr. Pallone, but if you 
had a comment.
    Mr. Jones. Mr. Chairman, just very briefly, obviously the 
Department of Interior and the Fish and Wildlife Service does 
not have a responsibility for fish in the ocean, and we would 
defer to NOAA and to the Department of State, expect except 
that we are responsible for the implementation of CITES, 
Convention on International Trade in Endangered Species, and 
fisheries issues such as the bluefin tuna, more recently the 
Patagonian toothfish, have now been introduced into the CITES 
debate. We have worked very closely with the Department of 
State, with NOAA, in developing U.S. positions on those issues, 
and it is still an open question about whether CITES is a right 
vehicle, but the point is we think we need consider the 
usefulness of every tool which is out there to help us protect 
our population of fisheries, and CITES is one of those tools 
that is still under consideration, though we have other 
instruments more directly focused on fishery resources that we 
hope can do the job.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you very much.
    The gentleman from New Jersey.
    Mr.  Pallone. Thank you, Mr. Chairman.
    I could ask this, I guess, Mr. Hogarth or Ambassador West, 
you could both answer it, but I know that Dr. Hogarth mentioned 
this black list issued by ICCAT which lists vessels suspected 
of IUU fishing as well as a white list which names those 
fishing vessels that comply with the ICCAT regulations, and I 
am also told that if Japan and the European Union and U.S. were 
to fully cooperate on the implementation of these two lists, 
about 33,000 metric tons of illegally caught fish would be off 
the market. And, of course, this sounds to me like a really 
good idea.
    So I want today ask either of you, start with Dr. Hogarth, 
does NOAA fisheries intend to submit a proposed rule on this 
measure so that your office and U.S. Customs can act 
cooperatively to stop illegal catches from entering the U.S. 
market, and then maybe Ambassador West could tell us whether 
the State Department intends to urge other ICCAT member nations 
to use these lists to stifle illegal catch.
    Dr. Hogarth. First of all, we do. We are in the process now 
of trying to develop this list, and we want to make sure that 
we get our list developed as quickly as, say, Japan or some 
other countries do so that we don't become sort of the country 
for dumping if they get the list in place first. So we are work 
closely with Japan, the EU, and we want to get this list out as 
quickly as possible. So we are all working on it.
    We are also working with the other countries. At the last 
ICCAT meeting, we had--in fact, Japan asked us to work with the 
Taiwanese particularly because of this same issue. There has 
been 240 vessels that have been identified, and we met with 
them and tried to cut this list down of illegal boats. So, yes, 
we are working on it.
    Mr. Pallone. Is it going to be like an agency rule, though, 
or regulation?
    Dr. Hogarth. Yes. It will be a listing of those vessels by 
the U.S. that are legal.
    The question of what we would do on the negative list and 
the black list is sort of being discussed now, because most 
countries felt like it would be more positive and more 
important to get the list of vessels that are legal that you 
should be buying from. It would be easier to keep that list up 
than the other way. So we are putting more emphasis now on the 
positive list.
    Mr. Pallone. And Ambassador?
    Ambassador West. You asked if we would encourage other 
ICCAT member nations to --
    Mr. Pallone. To use the list.
    Ambassador West. Use the list and enforce it. Absolutely. 
And let me also say that in this respect, as it has been in 
some other respects, ICCAT is at the forefront of developing 
some of these new tools to try to clamp down on illegal 
fishing, and so we are addressing the question of where else we 
might use things such as a positive list. Japan is very 
interested in talking with us and has already asked us to give 
some thought to what other fishery management organizations 
might benefit from similar kinds of management measures, and we 
are doing that.
    Mr. Pallone. OK. You know that several Atlantic coast 
states along with the Recreational Fishing Alliance and the 
World Wildlife Fund wrote a letter to urge certification under 
the Pelly Amendment to the Fishermen's Protection Act last 
October outlining the failure of countries in the European 
Union to comply with international regulations under ICCAT, and 
specifically these regulations will provide for the protection 
and recovery of bluefin tuna and white marlin, the very species 
that the Nature article that I mentioned highlighted as being 
under severe fishing pressure. In response to the petition, the 
Secretary wrote a letter to the EU trade minister raising these 
concerns, and I just wanted to know what plans the 
Administration has at the upcoming annual meeting of ICCAT to 
pressure the European Union to comply with these international 
standards.
    Dr. Hogarth. Mr. Congressman, there are two avenues going 
on now. One of them is the 301 trade issue which the Secretary 
wrote. It has gotten a little confused, because under the Pelly 
certification, I am the one that is handling that for the 
Secretary because it is different from the 301 trade. What we 
have done, I have written a letter to the EU and telling that 
we are in the process of evaluating their performance, so to 
speak, on ICCAT, that we know we passed resolutions last year 
to prohibit the harvest of small fish, that they signed on to 
this.
    I met with them once already to see what progress they are 
making, and what we are doing now is following the progress 
they are making with that resolution to reduce the small fish 
to fish under 3.2 kilograms or 6.4 kilograms and particularly 
for the bluefin. And so we have the resolution. We are 
following them, and we will make a determination under the 
Pelly probably after the next year's ICCAT meeting to see what 
data they have submitted and what progress they have made.
    So we meet with them on a regular basis. In fact, I am 
supposed to leave tomorrow for an ICCAT meeting, and we will be 
talking to EU about it, and we have a bilateral with the 
European Union here in I think it is late June, and these 
issues are forefront and we are following up on them. We take 
this very serious. I mean, we have got to have compliance, and 
the EU is a big player and the Mediterranean and the number of 
small fish being taken is crucial to the rebuilding of bluefin.
    Mr. Pallone. All right. Thank you, and I think that is 
probably good. Right? We don't need the Ambassador unless she 
wants to respond.
    Ambassador West. Well, I would just say that we agree that 
these are serious concerns and we are certainly working with 
the Commerce Department on them.
    There is a kind of funny dichotomy on ICCAT. ICCAT, as I 
said earlier, is at the absolute forefront of developing some 
of the most creative measures to address illegal fishing. On 
the other hand, it also has problems with compliance within its 
own ranks, and so we need to try to work on that. We have 
raised these issues with the EU at high levels, and we will 
continue to work them.
    Mr. Pallone. Thank you.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    Mr. Duke Cunningham.
    Mr. Cunningham. [Off mic.]--on a president-to-president 
level to maybe resolve this issue, and I would like to thank 
the panel for your efforts.
    Mr. Gilchrest. We will submit the letter for the record.
    [The letter referred to follows:] 
    [GRAPHIC] [TIFF OMITTED] T7232.001
    

    Mr. Gilchrest. Thank you, Duke.
    Mr. Cunningham. Thank you.
    Mr. Gilchrest. The gentleman from New Jersey, Mr. Saxton.
    Mr. Saxton. Thank you, Mr. Chairman.
    I don't know quite where to start. I guess maybe--I brought 
Jennifer with me because she keeps me calm. She is a calm 
person, and as Dr. Hogarth knows, when I get involved in these 
issues, sometimes I don't stay calm. So Jennifer promised me 
that I should tell you that she is going to keep me calm when I 
talk about these issues.
    And I as you can tell, my voice is calm, at least for now, 
and I would just like to proceed by saying that I think our 
international fishery regulatory regime can only be described 
as a failure. I have worked hard with you, Mr. Chairman, and 
with Mr. Pallone and with Dave and other staff members. I even 
wore one staff member out completely. He left the Fisheries 
Subcommittee because he couldn't take it anymore.
    The international effort to regulate fisheries through 
ICCAT and other organizations is a failure, and I think it is a 
failure for a number of reasons, but I think that the biggest 
reason for our failure is the lack of U.S. Government 
leadership in international fisheries matters. As I was sitting 
here thinking about all the things that we do on an 
international basis where we have been successful, we have got 
a great track record internationally. We lead the way in taking 
down the Iron Curtain. We led the way internationally in 
putting in place international policies that provided for the 
dissolution of the Soviet Union, and today we are leading the 
way economically helping the former Soviet Republic to recover 
from that terrible experience. We recently led the way in 
taking down the Taliban--it was an international effort--and 
freeing the Iraqi people.
    They were difficult problems, a lot of international 
debate, and the United States showed the leadership to solve 
these very difficult international problems or at least to take 
steps toward solving them. We played a major role in leading 
the world to establish the United Nations, and we lead every 
day at the United Nations in discussions to try to make the 
world a better place to live. It is all because of the United 
States leadership.
    We have built an economy based on a number of factors 
including international trade. International trade is the 
backbone to the world economy. None of us are independent 
anymore. We are all cooperative and make the international 
marketplace a place where it makes life better in the world.
    We have even lead the way in establishing an international 
space station. Wow. We do impossible things. And we help 
underdeveloped countries as the leader and the No. 1 
participant in the International Monetary Fund and the World 
Bank, but we can't find the way to provide the leadership that 
it takes to solve these international conservation, ocean 
conservation, problems. Somehow there is something missing from 
our regime of regulatory leadership capability, and it 
frustrates the life out of me, as David knows. He worked with 
me four or 5 years ago, and Rob Howarth, the guy that we wore 
out, in trying to come to grips with some of the problems this 
Canadian study and report talk about.
    And we failed. I failed. David failed. This Subcommittee 
failed. The Resource Committee failed. You failed. We 
collectively failed to provide the leadership that we needed to 
solve this terrible international problem, and the Canadians 
are very forthright. Let me just read this.
    Quote: ``International fishing practices have decimated 
every one of the world's biggest and most economically 
important species of fish according to a new and detailed 
global analysis that challenges current fisheries protection 
policies. Fully ninety percent of each of the world's large 
ocean species, including cod, halibut, tuna, swordfish, marlin 
have disappeared from the world's oceans in recent decades 
according to the Canadian analysis, the first to use historical 
data dating to the beginning of the large-scale fishing in the 
1950's.''
    ``The new research found that fishing has become so 
efficient that it typically takes 15 years to remove 80 percent 
or more of any species that becomes a focus of the fleet's 
attention. If current fishing practices continue,'' Meyers 
said, ``the world can expect serious economic--this copy 
doesn't include a word here. I think it is dislocations and 
shortages--'' in seafood-dependant nations and a lasting damage 
to marine--again the word is blocked out--``and short-sighted 
environmental policies.''
    If we can solve all these problems, all these other 
international problems, why can't we find the leadership 
ability to lead the way in solving the problems this study 
talks about and the studies we have talked about on this 
Subcommittee since at least 1994 when this reconfiguration of 
the Subcommittee took place, or 1995 I guess it was.
    So I guess my question is this, very much like the question 
that the Chairman asked in his opening question: What is it 
that we need to do different? Do we need to have a special 
commission to look at the way this Subcommittee is laid out and 
how NMFS is laid out and how the Department of Commerce, which 
negotiates international agreements, and the State Department 
carries out the international agreements? There is something 
terribly wrong with our ability to do this job, because it can 
only be characterized as failure.
    I would just like to hear your perspective on this.
    Ambassador West. Thank you. I will go first this time.
    Let me say that the U.S. has been a leader in developing 
the framework that we now have. Had it not been for the U.S., 
we would not have a Straddling Stocks Agreement. We would not 
have the Compliance Agreement. We would not have the new treaty 
that we just negotiated that will conserve and manage the tuna 
stocks out in the central and western Pacific. We would not 
have the Code of Conduct for responsible fisheries, or the plan 
of action on IUU fishing.
    But I do agree with you. We have the structure, but I do 
agree with you that our challenge, and one that we have not met 
as well as I wish, is to get these things implemented to stop 
illegal fishing, and to reduce capacity. These are things on 
which we are trying to develop new approaches, such as the 
black list and white list in ICCAT. But we have a lot of 
challenges ahead of us. As I mentioned, I think that one 
important element that we should concentrate on in the future 
is in developing capacity in the developing countries to manage 
the fisheries within their 200-mile zones. This is something we 
ought to think about putting more time and resources into.
    Finally, I would say, as you are well aware, the Pew Oceans 
Commission will issue its report next week, I think on June 
4th, and the Oceans Policy Commission will issue its report 
probably in September. Those will give us the opportunity, I 
think, together collectively to address some of the systemic 
questions and the governance questions that you have raised, 
and we certainly will want to work with Congress on that.
    Dr. Hogarth. Congressman Saxton, I know how you feel about 
these issues. We have talked quite about white marlin, and I do 
take some of it a little personal, I guess, since I am the 
leader of the National Marine Fisheries Service for the last 2 
years. And I agree. I think we have made process. I do.
    One of the things that bothers me very much is compliance 
on an international basis. I am sitting here thinking how to 
say this and whether I should say it or not, but we have the 
same problems domestically as we have internationally. Look at 
our fisheries on a domestic basis and the will to regulate. We 
have got a shrimp fishery in the Gulf which is the largest 
fishery money-wise. We, until last year, were unable to get a 
permit system to know how many vessels were even fishing in the 
shrimp fishery. We got stopped every time we turned around to 
do it. Now that shrimp fishery is suffering terribly from not 
being able to compete with agriculture and imports, but it is 
probably about 55 percent of those vessels could come out of 
the fishery. Those left would be harvesting the same amount of 
shrimp as that. That is what is happening on an international 
basis. Taiwan and Japan, those countries, fisheries is big to 
them and they are building vessels every day.
    So we have the same problem domestically with the will to 
manage fisheries as you would have internationally. Also, I 
agree that, you know, that we have to figure a way to get 
compliance. We get these things done, as the Ambassador said, 
but then have to get the compliance with it, is the trade 
measures, and that is very difficult to implement trade 
measures. The U.S. now is importing about 60 to 70 percent of 
all the seafood we utilize. About 80 percent of all the shrimp 
we use in this country are coming from imports.
    Fisheries are tough. Fisheries are tough. I wish I was a 
young man so I could go back and retrain to do something else. 
I am stuck for the next 2 years to try to make things better, 
but it is tough; and, you know, we have a fishery in the U.S. 
that is one of our biggest fisheries that has not met the quota 
or any fishing mortality levels in 20 years, and we are 
fighting now and the courts are in control of it to try to get 
regulations in place.
    So what I am saying is fisheries is tough to manage both 
domestically and internationally. We have the same problem with 
the will in countries to manage when that is all they have to 
do. To tell Japan, even, that you have got to close this area 
due to small fish, that we have done in the U.S. to small 
swordfish, is very difficult. But what we are trying to do now 
to fisheries, I am trying to develop gear technology that we 
can export to these countries, which I think that they will 
take and utilize.
    But I will take any advice I can get. One thing I want you 
to realize, and I hesitate to say this, but this report by Dr. 
Meyers, and I can give you several comments on it why we are 
not surprised what he said, but I think there are real issues 
there; but it was funded by the same group that is funding the 
Pew Ocean Commission, and right now they are getting ready to 
come out with their report on June 4th. So there is a lot of 
publicity ahead of this that is pointing to all the problems to 
get the public's attention.
    At the same time, NOAA Fisheries put out our Status of 
Stocks Report for 2002. I haven't found but one newspaper that 
bothered to carry the news release which pointed out the 
positive things that we have done on our fisheries, but the 
negatives points are being carried by everybody.
    So we have got to do a better job, I admit, and I will take 
any advice that this Committee and any other Committee would 
like to give us, but fisheries is tough. It is really tough to 
get these things done. I think we are leaders. I think we are 
not the leader we used to be because we don't have the 
fisheries that we used to have. Our tuna fleet is probably 
about a third of what it used to be on a national basis.
    Mr. Saxton. Well, I know it is tough. So was Iraq. So was 
the Taliban. So was the Soviet Union. So was the space station. 
They are all international efforts. They ain't any tougher than 
fish. We just don't have the national will to do these things.
    You mentioned your black list, good example, the black list 
of nations. Why don't we go after them? We have got the law in 
place to do it. Why don't we go after them? We don't have the 
will to do it.
    My time is up.
    Mr. Gilchrest. The gentleman from New Jersey has been very 
eloquent and passionate, and we will pursue our efforts fueled 
by his ingenuity and initiative.
    Thank you, Mr. Saxton.
    What we want to do is, you know, politics is a strange 
thing. International politics is even more strange, the nooks 
and crannies of the human condition, how do we deal with it.
    Madam Ambassador, you talked about three critical things: 
implement agreements, reduce capacity, find resources for 
underdeveloped nations to be able to manage those agreements, 
implement those agreements and then enforce those fisheries 
agreements. And I can tell you that this Subcommittee and 
hopefully this Congress will be even more relentless and 
aggressive to back up what you do and go even further from what 
you do with passing a bill out of this Subcommittee or a 
resolution out of this Subcommittee saying that the nations on 
this black list, we are going to implement the Pelly Amendment 
to the fullest extent of the law and start doing as many 
aggressive things as we possibly can.
    Inherent in all of this is political, is newspaper reports 
or people that put a certain slant on it that have an agenda. 
Each one of us has an agenda for sure, but inherent in all of 
this is we are hoping we can help, as far as you are concerned, 
with the best available science, and we will continue to 
provide the resources to ensure that that takes place, whether 
we can look through the maze of differing opinions and come up 
with the best available data and then engage the international 
community as a leader to enforce that.
    I just have two questions. One is sort of out of the ball 
park, and I only thought of it while Mr. Saxton was talking, 
and I don't know if any of you has jurisdiction over the issue 
of persistent toxic chemicals, mercury in particular, that is 
contained in fish fat, and there are protocols and 
recommendations all over the world, including the United States 
and especially people who are dependent upon fish for their 
main source of food and subsistence. Is there anything 
discussions that you have dealing with that issue of fish 
consumption, persistent toxic chemicals, mercury in particular, 
being dealt with in any of these agreements?
    Dr. Hogarth. I am not aware of anything that is being done 
in any of the agreements. I am aware that the U.S. Tuna 
Foundation has been spending a lot of money on the mercury 
issue because there are so many different opinions.
    I have talked to the--we are talking to the National 
Research Council about getting involved with their medical 
group to get involved with the mercury issue, because it does 
affect us. We manage, for example, king mackerel in the U.S. 
and we manage to a size that probably would have the higher 
mercury levels. So what does it mean for domestic management 
also? So we have a real concern even domestically.
    So we are going to take a look at this and get some expert 
advice, but internationally right now, I am not aware of anyone 
that is dealing with it.
    Mr. Gilchrest. Yes.
    Ambassador West. The one thing I would say is these issues, 
as some of you know, are of serious concern up in the Arctic, 
and we are through the Arctic Council working on persistent 
toxic chemicals as they get into the environment in the Arctic 
and show up in the fisheries and marine mammals. That is the 
only thing I can think of right now.
    Mr. Gilchrest. Is it an issue that is fairly well--it is an 
issue that is beginning to be--people are beginning to become 
cognizant of it domestically, and there are problems 
domestically, and I know in the Chesapeake Bay, I am going to 
ask the Governor of Maryland that at every fishing spot, every 
public landing, public dock, there should be a notification 
about the number of catfish that you consume, because there has 
been reports that under certain circumstances, you shouldn't 
eat of any of it, and under the best of circumstances, you 
should really significantly limit the amount of fish that you 
consume.
    So we are becoming cognizant. I am just wondering as you 
discuss these issues on an international basis, is anybody else 
talking about this.
    So I don't know, Mr. Jones, if you wanted to make a comment 
on it as well.
    Mr. Jones. Well, Mr. Chairman, just to endorse what 
Ambassador West said, the Fish and Wildlife Service, through 
the Arctic Council and its efforts to look at the conservation 
of Arctic fauna and flora as has been focusing on the amount of 
persistent organic pollutants which are showing up particularly 
in the diets of Alaskan Natives who consume on a subsistence 
basis both marine mammals and fish that come from Arctic 
waters. So it certainly is an issue there, but I think in that 
Arctic Council context, it is being discussed among the other 
Arctic nations.
    That is the only perspective that I can give on this, Mr. 
Chairman, but it is something that we recognize as important.
    Mr. Gilchrest. Yes, sir.
    Ambassador West.
    Ambassador West. I understand a couple of things. One is 
that UNEP is apparently addressing some of these issues and 
that I would be happy to provide you more detail. And, in 
addition, I think some of the food safety issues would be dealt 
with by Codex Alimentarius, which is FAO and WHO, but if we 
provide you a subsequent more fulsome answer on this, we can 
try to deal with that.
    [The information referred to follows:]

                      Response of Ambassador West

    This issue you have raised is one that has risen to prominence over 
the last decade on the international scene, and concern over this was 
one of the primary motivations for negotiating the Stockholm Convention 
on Persistent Organic Pollutants--a global agreement controlling 
production, use and release of certain toxic chemicals known to persist 
over long periods in the environment and to bioaccumulate in the food 
chain. With regard specifically to mercury, the U.S. government has 
been working with our international partners on cooperative efforts to 
deal with this important issue. On a regional basis, we negotiated an 
international agreement with Canada and many European countries to deal 
with three heavy metals, including mercury, that will help to reduce 
releases of mercury to the environment. More recently, the United 
States took the lead in establishing a `Mercury Program' in the United 
Nations Environment Program to provide technical assistance to 
developing countries to facilitate their efforts to address human 
health and environmental impacts related to mercury. In addition, the 
eight member states of the Arctic Council, including the United States, 
have cooperatively monitored and assessed levels of mercury and 
persistent organic pollutants (POPs) in the Arctic environment where 
fish represent an important element of both the modern and subsistence 
economy and the diet of indigenous communities and marine mammals. The 
latest assessment is titled, Arctic Pollution 2002, and is available on 
the web at www.amap.no.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much.
    Do we have the black list? Does the Subcommittee have the 
black list? Could we call it something else other than the 
black list? The offenders list?
    Dr. Hogarth. We have talked about the positive list and the 
negative list.
    Mr. Gilchrest. Do we have the positive list and the 
negative list?
    Dr. Hogarth. They have not been completed yet. They are in 
process. You know, we have got to make sure of this, that we 
are careful who goes on it, and then we have got to make sure 
we put them on the positive list if they actually belong there 
and we don't leave someone off that is going to impact them 
from a trade standpoint. So we are trying to verify that list 
at the present time so we can get it in the Federal Register.
    Mr. Gilchrest. This positive and negative list, is this 
specific --
    Dr. Hogarth. Vessels.
    Mr. Gilchrest. It is vessels flagged by convenience? It is 
also members of ICCAT that turn their heads under certain 
circumstances, or is it just basically vessels, flags of 
convenience?
    Dr. Hogarth. These will be all vessels by the countries 
that they are legal fish, that they are flagged properly, 
registered properly, and that we feel like are legal vessels 
and they report the data, that they are legally registered 
vessels, and they report data and the whole, you know --
    Mr. Gilchrest. Is the Pelly Amendment at all useful as we 
move through this, something we could begin actually holding 
hearings on and discuss to help your efforts?
    Ambassador West. Mr. Chairman, ICCAT is structured so that 
it requires countries to take trade measures against vessels 
that are offending, basically, the ICCAT rules. The U.S. 
already has the wherewithal to do that. So Pelly would not be 
necessary in this process.
    Mr. Gilchrest. Well, whether it is necessary or not 
necessary, whether there is a structure or not a structure, we 
just want to stay connected with you as you go through this 
process and try to implement some of these agreements, and when 
there are countries or vessels that are not pursuing this in an 
appropriate manner, then we want to bring international 
attention to that and certainly domestic attention to that.
    Thank you very much.
    Mr. Pallone.
    Mr. Pallone. I just wanted to say, Mr. Chairman, I 
appreciate your asking those questions about mercury, because 
it is a major concern, you know, not only nationally, but 
particularly in my state it has come up quite a bit.
    Just because I want to ask this before I forget, the 55th 
Annual Meeting of International Whaling Commission is going to 
convene next month in Berlin, and just two questions I guess 
for Dr. Hogarth: Will the U.S. continue to support the global 
moratorium on commercial whaling, and will the U.S. continue to 
oppose illegal scientific whaling by Japan and Norway?
    Dr. Hogarth. Yes, sir.
    Mr. Pallone. For both?
    Dr. Hogarth. Both.
    Mr. Pallone. All right. Thank you.
    I wanted to go back to the Polar Bear Treaty. I am probably 
mispronouncing it. What is it? Chukotka. And this is for Mr. 
Jones. The Administration has yet to forward to Congress a 
proposal of draft enabling legislation to implement the U.S.-
Russia treaty that was signed by the parties in October 2000. 
It is my understanding that ongoing negotiations inside the 
Administration have delayed the transmittal of this guidance.
    Two questions: One is it has been over 2 years. What issues 
are holding things up, if you could tell us, and in the 
interim, what management regulations are in effect for the 
polar bear population to ensure that any level of harvest by 
either Russian or Alaskan Natives is sustainable and within the 
conservation standards under the treaty? We are hearing, 
obviously, that there is still a lot of poaching on the Russian 
side, by way of background.
    Mr. Jones. Mr. Pallone, if I could take your questions in 
reverse order.
    Mr. Pallone. Sure.
    Mr. Jones. Let me start first with where we are right now. 
We are hearing the same thing. Clearly, the Russian Federation, 
I don't think this is a matter of will. They want to regulate 
things better in Russia. It is a matter of capability right 
now, and it depends on their relationship with the natives of 
Chukotka, which is a region of Siberia, just as, even though we 
operate under a different legal framework in this country, we 
are very much dependant on our relationship with Alaska 
Natives, because in this country, Alaskan natives have the 
right to an unlimited subsistence harvest of marine mammals; 
and the great breakthrough which was made in the negotiation of 
this treaty with Russia was the fact that each country 
recognized we could not succeed unless we had natives, Alaska 
Natives, natives of Siberia present.
    And so we involved the Alaskan Nanuuq Commission from the 
United States and the Union of Marine Mammal Hunters from 
Siberia as coequal partners with the governmental 
representatives. So there is a common agreement that we need to 
regulate the harvest, and Alaska Natives thus have voluntarily 
agreed that they would be bound by the framework which would be 
put together by this treaty.
    In the meantime, we are concerned that unregulated harvest 
on the Russian side combined with the subsistence harvest on 
our side of border could be a problem. In the last few years, I 
think we have had an average over the last decade or so of 
about 50 bears taken for subsistence purposes on the U.S. side 
of the border. The Russian side, we are not sure. The best 
Russian estimates put it somewhere between 100 and 400 bears 
per year on their side of the border from this same shared 
population.
    So adding that together, you could be anywhere from 150 to 
450 bears being taken every year. We have done some population 
projections based on what we know of the population size. We 
also are not sure how many bears there are, but the IUC has 
estimated that there are somewhere between 2,000 and 5,000 
bears. If we pick a number in the middle of that range and look 
at what are the effects of the harvest that we know is taking 
place in the United States combined with a much larger harvest 
that we believe is taking place in Russia, we would project a 
decline in the population and eventually elimination of the 
population over 30 years.
    Now, those are hypothetical numbers, but that is what the 
modeling would show. The good news is, back to what I said, we 
believe that the Government of Russia does have the will and 
they are looking for this treaty to give them the international 
framework and structure, working with the United States, to do 
a better job of regulating this.
    Mr. Pallone. But is anything being done in the interim, and 
what is holding up the treaty since it has been 2 years? We are 
asking the same questions again.
    Mr. Jones. Right. Back to your first question, then, 
negotiations are still going on within the Administration.
    The Department of Justice has raised some questions about 
certain aspects of this. These are legal matters, Mr. Pallone, 
that I don't think it would be appropriate for me to comment on 
the details of this, but we have ongoing discussions right now 
between the Department of Interior, the Department of Justice, 
and OMB about what the appropriate implementing legislation 
would be for this. We hope that these issues will be resolved 
very soon and that there will be an Administration legislative 
proposal, but I can't predict exactly when.
    Mr. Pallone. But in the interim, there really isn't 
anything positive, then, to say about it, because obviously you 
think that the population is declining.
    Mr. Jones. Mr. Pallone, what I can say is I think there is 
some goodwill. I think there is a recognition, and I believe 
that there, as a result, has been some lessening of the harvest 
by native groups on both sides of the border, but we can't 
really document exactly how much that is, and certainly we 
don't have any legally enforceable way right now of engineering 
that until the treaty goes into effect.
    Mr. Pallone. All right. Thank you.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    As a quick follow-up to that, and maybe you said it and I 
didn't catch it, are the native groups in any way being 
employed on either side of the border to help with enforcement?
    Mr. Jones. Right now, it is voluntary, but the Alaskan 
Nanuuq Commission and the North Slope Borough and others have 
been working with us, recognizing the need for restraint here. 
Most of the problems are not on the U.S. sides of the border.
    Mr. Gilchrest. Are most of the problems on the Russian side 
poaching or is it just --
    Mr. Jones. Poaching, because there still is a complete ban 
on all hunting of polar bears in Russia.
    Mr. Gilchrest. There isn't?
    Mr. Jones. There is.
    Mr. Gilchrest. There is?
    Mr. Jones. There is. That has been in effect since 1956. 
Unfortunately, they don't have the capacity to enforce that. 
They need cooperation. This agreement gives a much better--will 
put us in a much better context for getting cooperation from 
the Siberian hunters working with their counterparts.
    Mr. Gilchrest. What is the status of this agreement now?
    Mr. Jones. The agreement itself is pending before the 
Senate Foreign Relations Committee now for advice and consent, 
and we hope we will have an Administration proposal for 
implementing legislation presented to this Committee soon.
    Mr. Gilchrest. By the fall? Now, I guess the proposal for 
this agreement presented to this Subcommittee could happen--we 
could schedule it next week. We can schedule this. We are ready 
to with the proposal for this agreement. We will give your 
office a call and we will schedule the date.
    Mr. Jones. OK. Thank you, Mr. Chairman.
    Mr. Gilchrest. Yes, sir. Is most of the poaching done by 
people who sell these on the so-called black market? Is it the 
natives or subsistence hunters that are responsible for this 
poaching? Do we know who is responsible?
    Mr. Jones. There is certainly--there is native subsistence 
take in Siberia. There is concern that there may also be some 
sport hunting, which would be illegal, on the Russian side, but 
that may be taking place. Unfortunately, it is obviously one of 
the most remote areas on Earth. There also could be poaching 
for gallbladders which could be sold in international commerce. 
That would be--any international movements of gallbladders or 
other polar bear parts would be contrary to CITES. Polar bear 
is listed in Appendix II of CITES, not because it is 
endangered, because it is vulnerable.
    Mr. Gilchrest. How will this agreement once it is in effect 
help the Siberia side? Is it resources from the U.S. to help 
bolster and buttress their enforcement capabilities? Will it 
affect our subsistence hunters on our side at all by requiring 
them to reduce their catch of polar bears?
    Mr. Jones. The treaty establishes a framework whereby a 
commission, a polar bear commission, composed of 
representatives from governments and the native groups from 
both countries, would set annual harvest quotas which could be 
no more than the allowable subsistence take. Those would be 
enforceable either by the governments themselves or by the 
Alaska Native organizations through cooperative agreements with 
them provided they have the right capabilities and other 
things, and we think we could work with the Alaskan Nanuuq 
Commission. We have had an agreement in place for many, many 
years and very successful cooperation. They in turn could work 
with their native counterparts in Siberia. There would be some 
technical assistance from the Fish and Wildlife Service that 
would go into that. We can provide training. We can provide 
some financial incentives, although clearly they are the ones 
that have to do the work, but this would be a huge step toward 
and we think it would make a big difference.
    Mr. Gilchrest. Thank you.
    Just one last question, and we will recess for lunch until 
we get back next week for the polar bear agreement discussion.
    Mr. Pallone. Or during the break.
    [Laughter.]
    Mr. Gilchrest. Yes. We are going to come back during the 
break in Mr. Pallone's district.
    Mr. Pallone. We could always go to Siberia.
    Mr. Gilchrest. I am for that. We could hike up through 
those beautiful regions of the planet.
    The question is specifically dealing with the polar bear 
agreements. This is probably out of the ball park as well, but 
as the studies go through whether it is in this region or other 
regions, but particularly this region where it looks like in 30 
years if nothing is done, we could have no polar bears there, 
and the modeling that predicts that, is there any need or is 
there any discussion when you consider the effect on this 
northern region from climate change and some of the predictions 
about the loss of sea ice and further habitat for polar bears? 
Is any of that discussion a part of these agreements or 
discussions that you have?
    Mr. Jones. Well, Mr. Chairman, whatever the cause, we are 
aware that sea ice is different today than it was two or three 
decades ago. That certainly could have an affect on polar bears 
of all species. It is the one large mammal which is totally 
dependant on sea ice. That is where they live.
    This agreement does address conservation of habitat for 
polar bears. Now, it focuses on denning areas, for example, and 
it builds on a broader agreement. There is a 1973 agreement on 
the conservation of polar bears which involves not only the 
U.S. and Russia, but also Canada, Norway, and Denmark on behalf 
of Greenland, and in that 1973 treaty, which is in force in all 
countries, there is a commitment to protecting the habitat of 
polar bears. Through that plus the effort through the Arctic 
Council and the Conservation of Arctic Fauna and Flora, there 
certainly is research and thought being given to sea ice and 
whether the retreat of sea ice, what are the projections for 
the future and whether that could have an effect on polar bear 
population.
    So far, we believe it has not, and so far, the good news is 
polar bears overall, their population are very healthy; but 
overharvest and any retreat or change in sea ice certainly 
could affect their populations. It is not something we can give 
you anything definitive about today, but it is certainly 
something that we are watching. Mr. Chairman.
    Mr. Gilchrest. Thank you very much.
    Ambassador West, Dr. Hogarth, Mr. Jones, I appreciate your 
testimony this morning, and we would like to continue to stay 
engaged.
    I have to say one political announcement or whatever this 
is, commercial. I ask unanimous consent that the testimony of 
Mr. Bob Fletcher, President of the Sportfishing Association of 
California be submitted for the record.
    Without objection, so ordered.
    [The information referred to follows:] 

    [GRAPHIC] [TIFF OMITTED] T7232.008
    
    [GRAPHIC] [TIFF OMITTED] T7232.009
    
    [GRAPHIC] [TIFF OMITTED] T7232.010
    
    [GRAPHIC] [TIFF OMITTED] T7232.011
    
    [GRAPHIC] [TIFF OMITTED] T7232.012
    

    Mr. Gilchrest. Thank you all for your testimony, and we 
would like to stay fully engaged, and we know one of the 
professors up here is a very hard grader with passing out 
failing grades or passing grades or whatever, but we will all 
work on the same team to get this job done.
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 11:40 a.m., the Subcommittee was adjourned.]

    [NOAA's response to questions submitted for the record 
follow:]

Response to questions submitted for the record by the National Oceanic 
   and Atmospheric Administration for the Subcommittee on Fisheries 
  Conservation, Wildlife and Oceans Hearing on International Fishery 
            Conservation and Management Issues, May 22, 2003

    1. Question: Quite a bit of controversy has been generated by a 
letter to the editor in Nature Magazine regarding the depletion of 
predatory fish populations. This letter to the editor seems to 
contradict the conclusions of the recently released Status of the 
Stocks Report. Can you comment on the letter to the editor or on how 
you believe fisheries management is progressing both domestically and 
internationally? Isn't it true that ICCAT has recently declared the 
international Atlantic swordfish rebuilding plan to be ahead of 
schedule and the stock almost rebuilt? Can you please detail the 
efforts that the U.S. has taken at international fora to advance 
sustainable management?
    Answer: The Nature article is consistent with the current 
scientific view of impacts of global fisheries on marine ecosystems, 
but determining that fish stocks worldwide have declined is not a new 
conclusion. NOAA Fisheries scientists share many of the views 
identified by the authors of the article. However, there continues to 
be significant uncertainty regarding the dynamics of fish populations 
before data were collected systematically. Although some conclusions 
reached by the authors (e.g., regarding overfishing and resource 
declines) are widely shared in the scientific community, the 
conclusions reached about specific fisheries and specific ocean areas 
are affected by the uncertainty of what fish populations and the ocean 
environment was before data were routinely collected.
    We recognize that world ecosystems have been, and will continue to 
be, altered as a result of human activities. Rebuilding stocks to 
healthy levels includes a human impact component that must be 
considered. Therefore, NOAA is increasingly focusing its attention on 
scientific research into the impacts of marine fishing on our 
ecosystems. Because this is a global issue, we are working with the 
international community to address the multiplicity of issues that 
surround sustainable utilization of living marine resources. That said, 
we are not satisfied with the current state of international fisheries 
management, and we will continue to promote the establishment of 
rebuilding programs for overfished stocks, as we have done in 
International Convention for the Conservation of Atlantic Tunas (ICCAT) 
and Northwest Atlantic Fisheries Organization (NAFO), and improved, 
science-based management, as we are doing in all the regional fisheries 
management organizations of which we are a member. With regard to 
swordfish, it is true that ICCAT's most recent assessment showed North 
Atlantic swordfish to be significantly ahead of its rebuilding 
schedule. The stock climbed from about 65% of the biomass needed to 
produce MSY to about 96% - within three years. This is something to be 
proud of and demonstrates that with the cooperation of our foreign 
partners we can rebuild overfished international fisheries. For a 
comprehensive description of the international conservation and 
management regimes of interest to NOAA Fisheries and our efforts to 
promote sustainable international fisheries, please visit <http://
www.nmfs.noaa.gov/sfa/international/2003int%271agrmts.pdf>.

    2. Question: Due to court intervention, the western Pacific 
domestic longline fleet has been essentially put out of business and 
yet the fishing effort and sea turtle bycatch in the area has remained 
constant because of an increase in fishing by foreign fleets. How do 
you justify the restrictions on the domestic fleet when there is no 
protection for sea turtles by the foreign fleets that fish in the same 
waters? Has the virtual elimination of the domestic fleet made any 
difference in reducing sea turtle bycatch? Are there gear modifications 
that could allow the domestic industry to re-enter this fishery?
    Answer: Federal agencies are required under the Endangered Species 
Act to ensure that our actions are not likely to jeopardize the 
continued existence of a species in the wild. As a result, we often 
must avoid or reduce the adverse effects of our actions and provide 
protection for threatened and endangered sea turtles, regardless of 
what foreign nations are doing. This requirement extends to our fishery 
actions on the high seas. NOAA Fisheries recognizes that the United 
States is responsible for a small percentage of the total fishing 
effort in the Western Pacific and that in order to more permanently 
protect sea turtles we need to find solutions to reduce or eliminate 
turtle takes by international fleets. We continue to develop 
scientifically proven gear solutions that can be transferred to the 
international community through various international fisheries 
management bodies and though bilateral efforts. Those efforts are 
ongoing and include a multinational workshop held in February 2003 to 
evaluate possible solutions to reducing sea turtle interactions in 
longline fisheries.
    The restrictions on swordfish fishing have had a dramatic effect in 
reducing overall turtle takes. Tuna fishing, which continues, is 
relatively safer for turtles (fewer turtles are taken) because of the 
deeper fishing of hooks in the water column.
    Several promising solutions are currently the subject of intense 
scientific research. NOAA Fisheries has pursued an aggressive research 
program to reduce turtle capture in the longline swordfish fishery for 
the past several years in the Atlantic Ocean. Measures such as 
placement of hooks from a float, the types of hooks and different baits 
are being tested. Any successful modifications in our Atlantic highly 
migratory species fishery will be implemented through regulations and 
brought to the attention of the international community. We are 
preparing a comprehensive environmental impact statement to assess the 
continuation of similar research in the Pacific Ocean. We are also in 
the early planning stages of working with Inter-American Tropical Tuna 
Commission in sharing our gear modifications with Central America.

    3. Question: During the questioning of Dr. Hogarth, Congressman 
Pallone asked a question regarding the U.S. position on the ``illegal'' 
whaling activities by Japan and Norway. Can you clarify the U.S. 
position on whether the U.S. considers the activities of either Norway 
or Japan to be ``illegal ?
    Answer: The United States does not view the whaling activities 
conducted by Japan and Norway to be illegal. Japan takes about 700 
whales annually for scientific research purposes in accordance with the 
International Convention for the Regulation of Whaling. These research 
permits are issued under Japan's laws and do not require the approval 
of the International Whaling Commission (IWC). Norway conducts 
commercial whaling with a reservation to the commercial whaling 
moratorium. Therefore, the United States does not consider the whaling 
activities of Japan and Norway to be illegal under the IWC. However, it 
is the view of the United States that these whaling activities 
undermine the spirit of the IWC and in particular, the work of the IWC 
in its development of a Revised Management Scheme, should the 
commercial whaling moratorium be lifted.

    4. Question: You mention in your testimony that Italy will propose 
a resolution on whale bycatch at the IWC meeting this year. Does this 
concern you that the IWC might be heading toward an attempt at 
regulating fisheries that have whale bycatch? Isn't this entirely 
possible since some nations have argued that the IWC should regulate 
domestic whale watching and regulate the take of small cetaceans?
    Answer: At IWC 55, Italy sought to propose a resolution on whale 
bycatch. However, the resolution was deferred to a later date in order 
to continue further consultation with member countries. Italy's 
resolution is intended to foster research and the sharing of ideas on 
how to reduce bycatch of whales; it is not an attempt to regulate 
fisheries. Bycatch is viewed in the IWC as a separate issue from whale 
watching and small cetaceans. The IWC has not made a decision on 
whether it can regulate whale watching and take of small cetaceans. 
However, the IWC does generally discuss whale watching and take of 
small cetaceans.

    5. Question: Much of the international overfishing problem is 
caused by IUU fishing. How is the U.S. attempting to address this 
problem?
    Answer: Recognizing that international cooperation was absolutely 
necessary to any future success in combating Illegal, Unreported and 
Unregulated (IUU) fishing, NOAA is a key participant in the preparation 
of the National Plan of Action to Prevent, Deter and Eliminate IUU 
Fishing and the International Monitoring, Control, and Surveillance 
Network (IMCS).
    The IMCS Network is an arrangement of national organizations and 
institutions in charge of fisheries-related MCS activities, which have 
been designed to coordinate and cooperate in order to prevent, deter 
and eliminate IUU fishing. At present, there are at least 15 countries 
or entities (European Union and the Forum Fisheries Agency) 
participating. The MCS Network is intended to give agencies support in 
meeting national fisheries responsibilities as well as international 
and regional commitments in relation to the United Nations Convention 
on the Law of the Sea, the FAO Code of Conduct for Responsible Fishing, 
the United Nations Fish Stocks agreement and the International Plan of 
Action to combat IUU.
    NOAA is an active participant in the IMCS Network and administers 
the Network's Website (http://www.imcsnet.org). The Network has 
fostered beneficial working relationships between NOAA Office of Law 
Enforcement (OLE) personnel and their international counterparts. Due 
to this, OLE has made significant strides in addressing IUU fishing in 
the CCAMLR area, sharkfin trade, highseas driftnetting and many other 
vital areas.

    6. Question: The issue of Chilean sea bass was raised at the CITES 
meeting recently. What steps has the international fishery management 
body (CCAMLR) [taken] to regulate the harvest and trade of this 
species? What steps has the U.S. taken to implement a catch 
verification scheme to prevent IUU fish from entering the U.S. markets?
    Answer: Due to the scale of IUU fishing for toothfish in and beyond 
waters subject to CCAMLR, a Catch Documentation Scheme (CDS) for 
toothfish was adopted in 1999. The CDS identifies the origin of 
toothfish imports, determines if the toothfish were harvested 
consistent with CCAMLR conservation measures, monitors international 
trade, and provides catch data for stock assessments in the Convention 
Area. Although NOAA Fisheries has fully implemented the CDS in the 
United States, it recently published final regulations streamlining 
administration of the program and enhancing efforts to prevent the 
import of illegally harvested toothfish. On June 16, 2003, NOAA 
Fisheries began to operate a pre-approval system for most toothfish 
imports. Pre-approval allows the agency to review toothfish catch 
documents sufficiently in advance of import to facilitate enforcement 
and provide additional economic certainty to U.S. businesses in the 
toothfish trade.
    Information provided to CCAMLR has indicated high levels of IUU 
fishing in the Convention Area. The majority of CCAMLR members agreed 
that catches reported as harvests from FAO high sea areas in the 
(Statistical Areas 51 and 57) Indian Ocean adjoining the Convention 
Area were not credible and were in all likelihood fish pirated from 
within the Convention Area. They also expressed concerns, shared by the 
United States, that information reported in catch documents did not 
match scientific understanding of toothfish distribution and potential 
biomass of toothfish on the high seas. Therefore, also as of June 16, 
2003, no imports of fresh or frozen toothfish represented as harvested 
within FAO statistical Areas 51 or 57 have been allowed entry into the 
United States. Importers applying for a pre-approval certificate for 
fish that has been harvested from either of these areas will be denied 
pre-approval.

    7. Question: How can the U.S. identify those nations or ports that 
are assisting in the illegal landings and shipments of IUU-caught 
Chilean sea bass? Once they have been identified, how can the U.S. take 
action to stop these illegal practices?
    Answer: Through the implementation of the pre-approval system, the 
United States has provided the opportunity to ask some very specific 
questions of flag states, landing states, and exporting states before 
issuing permission to import. With this process in place, the United 
States can request and examine information surrounding the harvest, 
landing or exporting of toothfish prior to its arrival in the United 
States. Over the course of the past three years, since the first 
implementation of the CDS, several vessels have allegedly been sighted 
fishing illegally in restricted waters. CCAMLR has provided a mechanism 
for alerting member states of these alleged sightings, which in turn, 
allows the United States to exercise extra scrutiny concerning the 
verification of harvest location and circumstances of the landing. 
CCAMLR has also identified certain ports as ``ports of convenience'' in 
addition to identifying ``flags of convenience.'' The United States has 
supported CCAMLR in sending demarches to these port states identified 
as ports of convenience. Since the inception of the CDS, several of 
these port states have formally advised that they will participate in 
the CDS and/or have become members of CCAMLR.

    8. Question: As you are aware, a number of this Committee's Members 
have been concerned about the bycatch of blue and white marlin by 
foreign-flag vessels from both ICCAT-member nations and non-ICCAT 
member nations. How is the U.S. addressing this problem and how can 
Congress help to reduce this bycatch? Can Pelly Amendment sanctions be 
used against ICCAT-member nations that continue to ignore the ICCAT 
rebuilding targets?
    Answer: Because of the bycatch nature of most marlin catches in the 
Atlantic, which makes both data collection and stock management 
difficult, marlin conservation has been a challenging issue to address 
at ICCAT, but we believe we are making progress. As you may know, we 
were successful in pursuing adoption of a rebuilding plan at ICCAT in 
2000. As a first step, the plan calls for parties to reduce their white 
marlin landings by 67% and their blue marlin landings by 50%. Because 
this program only came into force for the later half of the 2001 
fishing season, it is difficult to fully evaluate how well parties are 
implementing it. Nevertheless, based on discussions at ICCAT last year, 
some ICCAT members appear to be harvesting in line with the 
restrictions while a few others have been less successful. Under 
ICCAT's compliance rules, however, parties must explain over-harvests 
and pay them back in future years. The United States has been working 
vigorously within ICCAT to implement and improve its compliance regime, 
and we will continue to do so. Moreover, since the quality of data for 
these bycatch species is a continuing concern, we successfully pursued 
the establishment by ICCAT of a data working group. This group will 
hold a meeting in October 2003 to identify data gaps and their causes 
and consider ways to improve data acquisition for marlins and other 
species. This should help us get a better understanding of non-member 
fishing as well, which is largely unreported and otherwise hard to 
track because of the limited market for these animals.
    The next stock assessment of marlins will be in 2005, at which time 
ICCAT will consider steps to further address marlin conservation. In 
the meantime, as noted, we will continue to press internationally for 
full implementation of ICCAT's marlin and compliance rules. 
Implementation of the so-called positive and negative vessel lists may 
also help us control these fisheries. Although the Pelly Amendment may 
be applicable, in order for this rebuilding plan to be successful, we 
need the cooperation of ICCAT's membership, and we believe we are 
obtaining that cooperation. At this stage, we do not think it would be 
wise to take any unilateral action.

    9. Question: Can the Pelly Amendment be used to address IUU fishing 
practices?
    Answer: The consistent implementation of the Pelly Amendment over 
the past 30 years suggests that it not likely to be an effective tool 
to combat IUU fishing. In the fisheries realm, the Pelly Amendment 
provides for the certification of and potential application of trade 
measures on foreign governments whose nationals, ``directly or 
indirectly, are engaging in trade or taking which diminishes the 
effectiveness of any international fishery conservation program.'' The 
Administration has therefore consistently looked to see whether the 
foreign government authorized or was complicit in such trade or taking. 
This is generally not the case in IUU fishing. The typical IUU case 
involves a vessel that has done everything possible to evade controls 
by the flag state. The challenge lies in identifying vessels rather 
than governments involved in wrongful fishing. Fortunately, a number of 
more appropriate tools have been or are being developed in order to 
directly address vessels that wrongfully fish, including port state 
controls, fish product tracking systems, and eco-labelling.

    10. Question: The U.S. fishing industry (in particular the North 
Pacific fishing industry) took the lead on voluntary practices on 
reducing seabird bycatch. How can these practices be encouraged for 
other nations'' fishing fleets and how can the international fishery 
management bodies take action to require seabird bycatch reductions 
without penalizing those who have taken the lead voluntarily and who 
have been leaders in this effort?
    Answer: NOAA Fisheries required the mandatory use of seabird 
avoidance measures in the demersal groundfish longline fisheries off 
Alaska in 1997 and the following year in the longline fishery off 
Alaska for Pacific halibut. The federal regulations are currently being 
revised to incorporate improvements in deterrent effectiveness as 
scientifically documented in a 2-year research study by scientists at 
the Washington Sea Grant Program and the University of Washington. 
Mandatory seabird avoidance measures have also been required in the 
pelagic longline fisheries of Hawaii since 2001. U.S. scientists 
(including NOAA Fisheries staff) in Alaska and Hawaii have participated 
in international collaborative research efforts to further advance the 
effectiveness of seabird deterrent devices. Efforts such as these that 
include scientists, fishery managers, fishermen, and other interested 
stakeholders will do much to advance the technology transfer of 
effective seabird mitigation practices in longline fleets throughout 
the world. These efforts may include but are not limited to: scientific 
research on active fishing vessels, outreach on mitigation methods and 
seabird identification, exchange of technical information and advice on 
observer program protocols for seabird bycatch data collection, 
technical workshops, international fishermen fora, and assistance with 
seabird bycatch assessments of longline fisheries.
    International Cooperation One of the most effective ways that we 
can encourage other nations'' fishing fleets and regional fishery 
management organizations (RFMOs) to adopt effective bycatch reduction 
methods is to vigorously support and model implementation of the United 
Nations Food and Agricultural Organization's International Plan of 
Action on Reducing the Incidental Catch of Seabirds in Longline 
Fisheries (IPOA-Seabirds). NOAA Fisheries, in concert with the 
Department of State (DOS) and the U.S. Fish & Wildlife Service (USFWS), 
has promoted the implementation of the IPOA-Seabirds and the 
development of national plans of action (NPOA-Seabirds) (or similar 
instruments) through various avenues such as:
    Bilateral Fisheries Meetings and RFMOs In 2002/2003, the United 
States met bilaterally on fisheries issues, including seabird bycatch, 
with: People's Republic of China, European Union, Canada, Chile, Japan, 
Russia, and Spain. The United States was one of the sponsors for a 
seabird resolution adopted at ICCAT in 2002. The ICCAT resolution calls 
on all parties to implement the IPOA-Seabirds and to provide the 
Commission with information about fishery interactions with seabirds. 
Since 2001, the United States has actively participated in a scientific 
working group of the Commission for the Conservation of Antarctic 
Marine Living Resources (CCAMLR) that specifically addresses issues of 
seabird bycatch. The adoption of strong and effective resolutions by 
RFMOs to implement the IPOA-Seabirds is one way that the seabird 
bycatch issue can be effectively and consistently addressed in those 
fisheries where a bycatch problem exists.
    Communication with 23 Longline Nations (Entities) In 2002, the 
United States approached 23 nations (entities) with longline fisheries 
and arranged meetings of embassy staff with appropriate government 
officials. The United States urged them to implement the IPOA-Seabirds, 
conduct needed longline fishery assessments, and develop an NPOA-
Seabirds if a seabird bycatch problem was determined to exist. In-
country contacts within government agencies of many of these fishing 
nations have been established and dialogue initiated. In 2003, we are 
collaborating with Chile to jointly submit a seabird bycatch proposal 
to APEC. We also plan to participate in a technical seabird bycatch 
workshop in early 2004 that will focus on the Asian longline fleets.
    Second International Fishers Forum (IFF2) The Western Pacific 
Regional Fishery Management Council hosted the Second International 
Fishers Forum (IFF2) in Honolulu, Hawaii, November 19-22, 2002. NOAA 
Fisheries and USFWS provided financial support and numerous staff from 
NOAA Fisheries, USFWS, and DOS attended. The mission of the forum was 
to convene an international meeting of fishermen to address possible 
solutions to incidental bycatch of sea turtles and seabirds by longline 
fishing gear. This mission was successfully achieved and plans are 
already underway for IFF3.
    BirdLife International (BLI) Seabird Bycatch Workshop NOAA 
Fisheries has been invited to participate in a technical seabird 
bycatch workshop being proposed by BLI in 2004 in Taiwan. The proposed 
workshop has been endorsed by the Fisheries Administration of Taiwan 
and will focus on the Asian longline fleets. NOAA Fisheries will 
participate and is able to contribute financial support as well.
    Asia-Pacific Economic Cooperation Fisheries Working Group (APEC 
FWG) Chile and the United States have submitted a proposal to APEC's 
FWG. This project would assess and mitigate seabird bycatch in the 
longline fisheries in the Pacific and develop a bycatch database that 
can be used to generate regional and local bycatch assessments for at-
risk seabird species in the Pacific. Chile will be used as a case study 
of how bycatch can be assessed and mitigated in other APEC economies.
                                 ______
                                 
    [The Department of the Interior's response to questions submitted 
for the record follows:]

Response by the Department of the Interior to Questions Submitt4ed for 
 the Record on H.R. 2048, the International Fisheries Reauthorization 
                              Act of 2003

    1. You testified that there are approximately 60 projects that are 
funded annually through the appropriation to the Yukon River Salmon 
Restoration and Enhancement Fund. Can you tell us a little bit about 
the types of projects that are funded and, if possible, the ratio of 
projects in the U.S. to those in Canada?
    The Restoration and Enhancement Fund supports projects that fall 
into five categories:
    1. Salmon stock assessment and monitoring to provide U.S. and 
Canadian managers with information necessary to ensure adequate salmon 
spawning escapements and for meeting harvest objectives;
    2. Salmon habitat assessment and restoration projects to identify 
and restore important salmon habitats in Canada;
    3. Projects that promote the conservation and stewardship of 
salmon and their habitats;
    4. Stock rebuilding via small-scale egg incubation to increase 
production in systems thought to be severely depressed, and voluntary 
reductions in harvests to increase spawning escapements; and
    5. Management planning.
    The allocation of funds among these categories has varied between 
2002 and 2003 (see attached table). An emphasis in both years was 
placed on stock assessment and monitoring, and habitat assessment and 
monitoring. The Yukon River Panel is currently developing a strategic 
plan for use of the Restoration and Enhancement Fund to maximize 
benefits accrued from the Fund. Projects were funded at less than $1.2 
million to allow for administration of the Fund, to provide for 
contingencies in the exchange rate, and to meet unforeseen needs as 
projects are implemented.
    The Yukon River Salmon Agreement also stipulates that:
    (1) LFifty percent of the Fund shall be used for programs, 
projects, and associated research and management activities on either 
side of the Alaska-Yukon border directed at the restoration, 
conservation and enhancement of Canadian origin salmon stocks. These 
Funds are disbursed at the direction of the Yukon River Panel.
    (2) LFifty percent of the Fund shall be used for programs and 
projects that are directed at developing stewardship of salmon habitat 
resources and maintaining viable salmon fisheries in the Yukon River in 
Canada. These funds are disbursed on Canadian programs and projects 
approved by the Canadian section of the Panel when found with the Yukon 
River Panel as a whole to be consistent with the Principles and 
Guidelines for the Fund.
    Nine U.S. projects, totaling about $200,000 per year, were funded 
in 2002 and 2003; these focused on assessment and monitoring needs to 
meet U.S. commitments for border passage (see attached table). More 
proposals are received from Canada than from the U.S. In 2003, 9 of 15 
U.S. proposals were funded and 49 of 106 Canadian proposals were 
funded. Three Canadian projects, totaling $160,000, provided Canadian 
support to a large-scale, drainage-wide chinook salmon radio telemetry 
project being conducted by the Alaska Department of Fish and Game, 
National Oceanic and Atmospheric Administration--Fisheries (NOAA 
Fisheries), and the U.S. Fish and Wildlife Service (Service).

[GRAPHIC] [TIFF OMITTED] T7232.013


    2. Your testimony talks about restoring Yukon River salmon 
populations. Does this include enhancement projects?
    The Yukon River Salmon Agreement defines ``restoration'' as 
returning a wild salmon population to its natural production level and 
``enhancement'' as expanding a wild salmon stock beyond its natural 
production level. Because Canadian-origin, Yukon River salmon stocks 
are thought to be below their natural production level, we are 
currently in a restoration mode.
    Is there interest in hatchery production and if so, is there 
concern that more hatchery production may reduce ocean productivity for 
other species of salmon?
    There is little support for use of hatchery production for the 
restoration or enhancement of Yukon River salmon. This lack of support 
for hatchery production is evidenced in the ``Principles and Guidelines 
for Restoration, Conservation and Enhancement Programs and Projects,'' 
Appendix 1 to Attachment C of the Yukon River Salmon Agreement, which 
states in pertinent part:

Principles
    1. Restoration, conservation and enhancement programs and projects 
shall be consistent with the protection of existing wild salmon stocks 
and the habitats upon which they depend.
    2. Given the wild nature of the Yukon River and its salmon stocks, 
and the substantial risks associated with large-scale enhancement 
through artificial propagation, such enhancement activities are 
inappropriate at this time.
    3. Artificial production shall not be used as a substitute for 
effective fishery regulation, stock and habitat management or 
protection.

Guidelines
    The priorities for implementing programs and projects using monies 
disbursed from the Restoration and Enhancement Fund shall be in this 
order with regard to Attachment C, paragraph 1 (a):
    (1) LRestoring habitat and wild stocks;
    (2) LConserving habitat and wild stocks;
    (3) LEnhancing habitat; and
    (4) LEnhancing wild stocks
    There is only one large-scale production facility on the Yukon 
River. It produces chinook salmon to offset the loss of juvenile salmon 
that pass over the spillway or through the turbines of a hydroelectric 
dam located on the Yukon River in Whitehorse, Yukon Territory, Canada. 
Funding for its operation does not come from the Restoration and 
Enhancement Fund.
    In 2003 the Restoration and Enhancement Fund provided funds for two 
small-scale, egg incubation projects to rebuild depressed salmon stocks 
in Canada. A primary objective of both projects is to foster 
stewardship of salmon and their habitats within local communities; as 
such, both provide for student involvement.

    3. Although the U.S. and Russia have completed negotiations on a 
treaty on the conservation and management of polar bears, there has 
been some concern about the harvest in Russia this year. What is the 
situation and how can the U.S. help alleviate this situation?
    The Agreement between the Government of the United States of 
America and the Government of the Russian Federation on the 
Conservation and Management of the Alaska-Chukotka Polar Bear 
Population was signed on October 16, 2000, in the United States; 
however, it has not yet been ratified. The President submitted the 
Agreement to the Senate on July 11, 2002, to begin the ratification 
process, and the Senate Foreign Relations Committee held a hearing June 
17, 2003. In addition to ratification, authorities to implement key 
provisions of the Agreement are necessary and must be attained through 
passage of implementing legislation by Congress. A fundamental 
provision of the Agreement is the process to determine sustainable 
harvest limits and allocation of those limits between the two 
countries. Polar bears represent a valuable species, both commercial 
and otherwise, for the native people of the State of Alaska, satisfying 
traditional subsistence needs and providing the raw material for the 
manufacture and sale of handicrafts and clothing in interstate 
commerce. Implementation of the Agreement is dependent upon successful 
completion of these legislative actions.
    There is a growing concern that a significant, but unquantified, 
level of harvest in Chukotka, combined with the closely monitored 
Alaska harvest, could be causing population declines. If unchecked, the 
projected level of harvest could severely depress the population and 
require years for recovery. Current harvest levels are similar to or 
potentially greater than levels of the 1960s that resulted in 
significant population declines. A Service report entitled ``Chukchi 
Sea Polar Bears: A population concern'' provides details (attached).
    In order to avoid depletion of the Chukchi Sea polar bear 
population, full implementation of the Agreement must be attained as 
soon as possible. In the United States, this requires ratification of 
the Agreement and passage of implementing legislation. The Russian 
equivalent to ratification of the Agreement was completed as a 
governmental requirement prior to signing the Treaty. The only step 
remaining in Russia is signature of an administrative action or 
``normative'' act by the Ministry of Natural Resources. We are informed 
that the administrative action is prepared and will be signed when the 
United States is prepared to implement the Treaty.
    The excessive Russian harvest has captured the attention of 
conservation organizations and the Alaska and Chukotka native polar 
bear hunting organizations. Representatives of the Alaska Nanuuq 
Commission and the Chuktoka Association of Traditional Marine Mammal 
Hunters signed a joint statement urging our respective countries to 
fulfill the commitments of the Agreement in Anadyr on May 27, 2003 (see 
attached).

    4. The issue of trade in Chilean sea bass was raised at the recent 
CITES meeting. Despite the fact that the international fisheries body 
that regulates fishing in the range of the Chilean sea bass had 
developed a catch reporting scheme, there was pressure to involve 
CITES. Since the problem appears to be a result of IUU fishing, isn't 
it appropriate that the fishery management body and the member nations 
deal with this rather than CITES? If not, does this mean that CITES 
will be the forum for all of the discussions about commercially 
harvested fisheries that have IUU fishing problems?
    IUU fishing for Patagonian and Antarctic toothfish in the Southern 
Ocean is a problem that the Commission for the Conservation of 
Antarctic Marine Living Resources (CCAMLR) has been facing for several 
years. In an attempt to address this problem, the CCAMLR countries have 
implemented the Catch Documentation Scheme (CDS) to reduce 
opportunities for IUU toothfish landings to be traded. Regional 
management organizations like CCAMLR have primary responsibility for 
managing the harvest and trade of marine fish such as toothfish, and 
CCAMLR is taking significant steps to address problems related to IUU 
fishing.
    CITES has demonstrated its ability to complement existing 
management and trade controls, especially for commercially exploited 
species in international trade, and therefore has the potential to aid 
in the control of trade in toothfish. At the most recent CITES meeting 
(COP12, November 2002), Australia, as both a CITES and CCAMLR Party, 
proposed the listing of toothfish in CITES Appendix II. Many prominent 
fishing nations such as Japan, Norway and Iceland oppose actions under 
CITES regarding commercial fish stocks. Australia submitted this 
proposal under the premise that the mandatory permitting requirements 
of CITES, coupled with its near-global membership, would complement the 
CCAMLR CDS and help prevent IUU fisheries from undermining efforts to 
manage the harvest of toothfish. However, Australia withdrew its 
proposal after working with the Chilean and U.S. delegations on a 
resolution to foster cooperation between CITES and CCAMLR. This 
resolution, adopted by consensus, came into effect in February 2003 and 
calls on CITES Parties to voluntarily adopt the CDS, report to the 
CITES Secretariat yearly on their progress, and ensure that ships 
flying their flag do not undermine CCAMLR's conservation program for 
toothfish. The CCAMLR Secretariat was called on to consider how further 
cooperation between CITES and CCAMLR could be best achieved. The CITES 
Secretariat was directed to make a full report on Parties' CDS 
implementation at the next CITES meeting, scheduled to occur in October 
2004.
    While Australia's decision to submit a CITES listing proposal for 
toothfish was generally not supported by CCAMLR Parties at their 
meeting prior to CITES COP12, the proposal resulted in the CITES 
Parties taking meaningful steps to conserve toothfish and reduce IUU 
fishing in and outside of the CCAMLR Convention Area, and did so 
without listing the species in the CITES appendices. The CITES Parties 
took meaningful steps to conserve toothfish and reduce IUU fishing in 
and outside of the CCAMLR Convention Area. CITES can provide a 
framework for improved control of trade in marine fishery resources 
when species are taken in international waters outside the jurisdiction 
of other agreements, or when IUU fisheries go unaddressed and threaten 
the viability of exploited populations. CITES can complement fisheries 
agreements that do not have trade provisions and when the fisheries are 
driven by international trade. Finally, the FAO sub-committee on 
Fisheries has recently agreed on the technical details of how to work 
with CITES on evaluating future listing proposals on living marine 
resources, but implementation of such measures is hampered by lack of 
agreement within FAO on text for an overall Memorandum of Agreement on 
fisheries issues with CITES.
                                 ______
                                 
    [The Department of State's response to questions submitted 
for the record follows]

Questions submitted for the record by Ambassador Mary Beth West to the 
 House Committee on Resources, Subcommittee on Fisheries Conservation, 
                   Wildlife and Oceans, May 22, 2003

Question 1:
    H. Res. 30, introduced by Congressman Cunningham, calls upon your 
department to work with your Mexican counterparts to regain access to 
certain Mexican waters for American sportfishing vessels. You testified 
that your department has already done so. Why is the Mexican government 
reluctant to allow this access when it was allowed up until a year ago? 
What else can be done by your department or by Congress to resolve this 
issue?
Answer:
    Over the past year, State Department officials, including our 
Ambassador to Mexico, Anthony Garza, have raised this issue with senior 
Mexican government officials including Secretary of the Environment 
Victor Lichtinger, as well as the head of Mexico's National Commission 
on Natural Protected Areas, the Environmental Attorney General, and 
others. In each case, the response from the Government of Mexico has 
been the same: the fishing activity by sportfishing vessels around the 
Revillagigedo Islands occurs in the ``core zone'' of the marine 
biosphere reserve established around the islands in 1994 by 
presidential decree. Sportfishing was allowed to continue in the 
reserve under special permit pending the development of a management 
plan that set more specific rules. However, Mexican law related to the 
management of natural protected areas, including such biosphere 
reserves, was amended in 1996 to prohibit any ``extraction'' of 
resources in any biosphere reserve core zone. The current Mexican 
administration has expressed its commitment to implement and enforce 
Mexico's environmental and fisheries laws and maintains that the 
permits previously issued to U.S. vessels were not consistent with the 
applicable Mexican laws. While prospects for resolving this issue in 
the short term appear limited, we hope to continue discussions with 
Mexican counterparts in the hopes of finding a way forward, including 
the possibility of a study of the environmental impact of sportfishing 
in the Revillagigedo Islands.
    A Department of Commerce report to Congress on this matter is 
awaiting OMB clearance and will be delivered to Congress shortly.

Question 2:
    Funding for the Pacific Salmon Commission was inadvertently omitted 
from the fiscal year 2003 appropriations. Can you explain how this 
happened, what is being done to fix the oversight, and whether this has 
been fixed for 2004?
Answer:
    For fiscal year 2003, the Administration requested a level of 
funding that would have allowed the United States to meet all financial 
obligations to international fishery commissions. The amount 
appropriated by Congress for FY '03 fell more than $1.7 million below 
the requested amount. The report that accompanied the appropriations 
act specified that the Pacific Salmon Commission and several other 
international fishery commissions should receive no funding.
    The level of appropriations in FY '03 for international fishery 
commissions, and the specification that certain commissions must 
receive no funding, is causing considerable hardship and jeopardizing 
U.S. interests related to international fisheries. In the short term, 
the Administration has requested authority to reprogram some of the 
funds within this appropriation so that all of these commissions will 
receive at least enough contributions from the United States to carry 
out the bare minimum of their responsibilities.
    The Administration is encouraged that the Subcommittee regards the 
shortfall of funding in FY '03 as ``inadvertent'' and something that 
needs to be ``fixed.'' We note that, with very limited exceptions, U.S. 
contributions to international fishery commissions are not voluntary, 
but rather represent mandatory treaty commitments. Moreover, U.S. 
participation in each of these commissions supports U.S. economic and 
environmental interests that far exceed the dollar value of our 
contributions. Failure of the United States to pay our dues to the 
Pacific Salmon Commission, for example, could easily prevent that 
Commission from establishing harvest regimes, which could in turn cause 
U.S. fishers to be prohibited from harvesting the fish in question.
    For FY '04, the Administration has again requested a level of 
funding that would allow the United States to meet all its financial 
obligations to international fishery commissions.

Question 3:
    You mention several new treaties that either have been negotiated 
or are about to be finalized. Many of these will require Senate advice 
and consent. They will also require domestic implementing legislation. 
Should Senate action on the treaties precede the passage of any 
implementing legislation?
Answer:
    No legal requirement exists for Senate action on legally binding 
international agreements to precede the adoption of domestic 
implementing legislation. In fact, because both the treaty ratification 
process and the passage of implementing legislation can be time-
consuming procedures, pursuing them sequentially would result in 
unnecessary delay in U.S. ratification. It has proven efficient and in 
the best interests of the United States to proceed with Senate 
consideration of a treaty and the enactment of implementing legislation 
simultaneously, on parallel tracks, as it were. It is the policy of the 
United States not to express its consent to be bound by a Treaty by 
depositing its instrument of ratification until any necessary 
implementing legislation has become law. That does not, however, 
preclude the accomplishment of all steps in the ratification process up 
to that point, so that the United States can express its consent to be 
bound as soon as the legislation becomes law. We nonetheless look 
forward to early Senate action on the Agreement between the United 
States and the Russian Federation on the Conservation and Management of 
the Alaska-Chukotka Polar Bear Population (Treaty Doc. 107-10) and two 
fisheries agreements---Amendments to the 1987 Treaty on Fisheries 
Between the United States and the Governments of Certain Pacific Island 
States (Treaty Doc. 108-2) and the Agreement Amending the Treaty with 
Canada Concerning Pacific Coast Albacore Tuna Vessels and Port 
Privileges (Treaty Doc. 108-1).
    We believe that Senate support for these important international 
agreements will spur the adoption of respective implementing 
legislation. Such action will enable the United States to become a 
party to these agreements at the earliest possible time and thus to 
strengthen its hand in conserving marine mammals and protecting fish 
stocks from further precipitous declines.

Question 4:
    A proposal to create a new ``Conservation Committee'' within the 
International Whaling Commission (IWC) seems to be creating 
controversy. Some have argued that the creation of such a committee 
will reduce and coordinate the multitude of resolutions on whale 
conservation matters. Others have argued that this will be another way 
to further prevent any action on any whale harvesting management scheme 
and will circumvent the full IWC. Can you comment on this proposal? 
What is the U.S. position on completing the Revised Management Scheme 
(RMS) and what steps has the United States taken to move this 
completion forward? What are the major hurdles to completing the RMS?
Answer:
    The United States co-sponsored the resolution to establish a new 
Conservation Committee. This new body is not an anti-whaling committee, 
as those opposed to it have suggested. The International Convention for 
the Regulation of Whaling recognizes both the principles of 
conservation and management. As a committee of the whole, every member 
of the IWC would be a member of the Committee. The Committee is 
designed to address conservation issues in a more orderly fashion.
    Although the United States is opposed to the resumption of 
commercial whaling, it has participated in good faith efforts to 
negotiate the Revised Management Scheme (RMS). The United States has 
taken several steps to advance these negotiations, including leading 
the effort to create a new Compliance Review Committee and offering 
compromise proposals on a number of key issues (i.e., observer 
placement, catch verification using national DNA registers and cost 
sharing). Major hurdles that remain include resolving the parties'' 
differences concerning provisions on catch verification and cost 
sharing. Little progress is likely until the pro-whaling nations 
demonstrate a willingness to accept reasonable compromises.

Question 5:
    The IWC has created a number of sanctuaries. These sanctuaries 
include the EEZs of nations that border these sanctuaries. If the IWC 
were to create a sanctuary that included the EEZ of the United States, 
wouldn't this impinge on the sovereignty of the U.S. and possibly 
create a conflict with domestic laws?
Answer:
    The IWC has created sanctuaries in the Indian Ocean and in the 
Southern Ocean, and proposals to establish new sanctuaries in the South 
Atlantic and South Pacific Oceans have come before the IWC in recent 
years. The proposed South Pacific Sanctuary would include a small 
portion of the U.S. EEZ, namely the waters adjacent to America Samoa. 
The government of America Samoa has endorsed the proposal to establish 
this sanctuary. In our view, such whale sanctuaries would not infringe 
upon U.S. sovereignty or conflict with domestic law. Under the Marine 
Mammal Protection Act, commercial whaling is already prohibited in 
waters subject to the jurisdiction of the United States. In addition, 
the Endangered Species Act generally prohibits the take of threatened 
or endangered whales.

Question 6:
    During the questioning of Dr. Hogarth, Congressman Pallone asked a 
question regarding the U.S. position on the ``illegal'' whaling 
activities by Japan and Norway. Can you clarify the U.S. position on 
whether the U.S. considers the activities of either Norway or Japan to 
be ``illegal''?
Answer:
    The United States does not regard the whaling activities of either 
Japan or Norway to be illegal. Japan takes about 700 whales annually 
under Article VIII of the International Convention for the Regulation 
of Whaling (ICRW), which allows parties to take whales for scientific 
research purposes without the approval of the International Whaling 
Commission (IWC). Norway takes about 700 whales annually for commercial 
purposes under an objection to the IWC's 1982 decision to implement a 
moratorium on commercial whaling. (Norway's objection is consistent 
with Article V of the ICRW.)

Question 7:
    Can you tell us more about the extension of the South Pacific Tuna 
Treaty? What are the basic terms of the extension? Are the U.S. fishing 
interests satisfied with the terms of the extension? How will this 
extension relate to the new western and central Pacific fishing 
agreement that you also testified about? How much of the tuna harvested 
under the South Pacific Tuna Treaty is delivered to American Samoa?
Answer:
    In March 2002, the Department of State completed negotiations to 
extend the operation of the 1987 Multilateral Treaty on Fisheries 
Between the Governments of Certain Pacific Islands States and the 
Government of the United States of America. Negotiation sessions were 
held in March 2001 and November 2001. The third and final session 
occurred March 20-23, 2002.
    This Treaty was originally ratified on December 21, 1987, following 
Senate advice and consent to ratification. Although the Treaty itself 
is of unlimited duration, associated with the Treaty is an Economic 
Assistance Agreement under which the United States provides funds to 
the Parties to the Treaty through the Forum Fisheries Agency (FFA), to 
be used solely for economic development. The Agreement is a prime 
example of targeted aid that assists developing countries while also 
providing a tangible benefit to an important sector of the U.S. 
economy. This arrangement was concluded as an Executive Agreement.
    Over the last fifteen years, the Treaty and its related Agreement 
have become a vital component of the political and economic 
relationship between the United States and the Pacific Island Parties. 
The Agreement is the only source of U.S. economic assistance to the 
vast majority of the Pacific Islands that are party to the Treaty. The 
only exception is the assistance provided to the Federated States of 
Micronesia, Republic of the Marshall Islands, and Palau under their 
Compacts of Free Association with the United States.
    The Agreement has first extended in 1993 and the current 10-year 
term of the Agreement expired on June 14, 2003. Unless the Agreement 
was extended, the arrangements available to the United States under the 
Treaty would cease to operate at that time.
    In March 2002, the United States and the sixteen Pacific Island 
Parties reached agreement to extend the operation of the Treaty for 
another 10 years, through June 14, 2013, with amendments to certain 
provisions of the Treaty, its Annexes, and by extending the associated 
Economic Assistance Agreement.
    In particular, the United States and the Pacific Island Parties 
agreed on the number of fishing licenses (45), the annual level of 
industry license fees ($3 million USD), and the annual level of 
economic assistance provided by the U.S. Government under the Economic 
Assistance Agreement associated with the Treaty ($18 million USD).
    The amended Treaty will, inter alia, enable use of new technologies 
for enforcement, streamline the way amendments to the Annexes are 
agreed, and modify the waters that are open and closed under the 
Treaty. Of particular interest to the U.S. industry, the waters of the 
Solomon Islands will be opened.
    The extension of the Treaty will ensure that the United States and 
the Pacific Island Parties continue to enjoy a close and cooperative 
working relationship with respect to the management of the high value 
fishery resources of the Central and Western Pacific and that U.S. 
fishing vessels will continue to have access to these rich fishing 
grounds. U.S. tuna fishing interests are satisfied with the terms of 
the amended and extended Treaty arrangement.
    There are two substantive amendments to Article 7 of the Treaty 
that relate to the WCPFC Convention. These amendments pertain to 
linkages between the Treaty and the WCPFC Convention, once the latter 
enters into force. The first of these amendments, a new paragraph 2, 
provides that parties to the Treaty shall, where appropriate, consider 
the extent to which adjustments to the provisions of the Treaty or 
measures adopted thereunder may be necessary to promote consistency 
with measures adopted under the WCPFC Convention. The second, a new 
paragraph 3, provides that parties to the Treaty may cooperate to 
address matters of common concern under the WCPFC Convention. These 
amendments provide for cooperation and the promotion of consistency 
between the two treaties, without binding the United States to the 
WCPFC Convention or any future measures adopted under it prior to its 
entry into force for the United States.
    Of the U.S. vessels that hold licenses pursuant to the Treaty, at 
least eighty-five percent of the tuna harvested in the region is off-
loaded in American Samoa on average per year.

Question 8:
    Russia has not ratified the 1990 maritime boundary agreement 
(although the USSR did). Some in Russia have called for a renegotiation 
of this treaty, although it is unlikely that Congress will support a 
renegotiation. What is the Administration's position on this matter?
Answer:
    The Administration does not support a renegotiation of the 1990 
maritime boundary agreement. We have made this position clear 
repeatedly to the Government of Russian Federation.
    We have, however, suggested to the Russian Government a number of 
ways in which our two countries could improve their cooperative 
activities in the Bering Sea region, including in the areas of 
fisheries scientific research and fisheries law enforcement. We are 
hopeful that the Russian Government will react favorably to our 
suggestions.
    We would note that the U.S.S.R. did not ratify the 1990 agreement. 
However, the Soviet Union and the United States did agree in 1990 to 
apply the boundary agreement on a provisional basis, pending its 
eventual entry into force.

Question 9:
    A recent letter to the editor of Nature magazine had created quite 
a bit of controversy regarding the depletion of predatory fish 
populations. What is your assessment of this report and do you agree 
that the world's fish stocks are in dire condition? Do you think we 
have the tools necessary to address these concerns internationally? Can 
you please detail the efforts that the U.S. has taken at international 
fora to advance sustainable management?
Answer:
    We clearly recognize that there is no doubt that many of the 
world's fish stocks face serious problems. However, the situation is 
not quite as dire as reported. It is true that a number of fish stocks 
have collapsed and others have been significantly reduced within the 
last half-century. At the same time, however, a number of important 
fish stocks, including most Pacific tuna stocks and fisheries off 
Alaska, remain healthy, at least for now, though pressure on some of 
these stocks is growing.
    Over the past decade, a suite of international agreements has been 
negotiated to maintain healthy fisheries, reverse declines where they 
have occurred and achieve sustainable fisheries in the long term. Our 
challenge is to get these agreements fully implemented, to stop illegal 
fishing in violation of these agreements or by vessels of countries 
that are not party to the agreements, and to address overcapacity in 
the world's fishing fleets. However, approximately 90 percent of the 
world's fish catch is taken within 200-mile coastal zones around the 
world. Many of these zones are off developing countries that don't have 
the capacity to manage and enforce their stocks. Building these 
countries'' capacity to manage their stocks should be an additional 
priority.
    The United States has been a leader in developing existing 
international frameworks, including the Agreement for the 
Implementation of the Provision of the Convention Relating to the 
Conservation and Management of Straddling Fish Stocks and Highly 
Migratory Fish Stocks, and the FAO Agreement to Promote Compliance With 
International Conservation and Management Measures by Fishing Vessels 
on the High Seas. The U.S. has also recently negotiated a new treaty 
that will conserve and manage tuna stocks in the western and central 
Pacific. We have also taken a leading role in developing the FAO Code 
of Conduct for Responsible Fisheries and the International Plan of 
Action to Prevent, Deter and Eliminate Illegal, Unreported and 
Unregulated Fishing (IPOA-IUU).

Question 10:
    Are you aware of any attempts to amend the Nicholson Act to allow 
foreign-flag fishing vessels access to U.S. ports? At a time when port 
security is a major issue, would the Administration oppose such an 
attempt?
Answer:
    We are not aware of any proposals to amend the Nicholson Act to 
increase access by foreign-flag fishing vessels to U.S. ports. We agree 
that, at a time when port security is a major issue, any such proposals 
could raise concerns and would need to be scrutinized very carefully.
    There are a few U.S. ports to which the Nicholson Act restrictions 
on access by foreign fishing vessels do not apply, particularly in U.S. 
island territories. Foreign fishing vessels land considerable amounts 
of fish at these ports, particularly tuna for processing at local 
canneries. In accordance with the 2001 FAO International Plan of Action 
on IUU Fishing, the Administration is currently reviewing the existing 
rules and procedures regarding the landing of such fish. The purpose of 
this review is to determine whether these rules and procedures could be 
improved so as to prevent the landing of illegally harvested fish.

Question 11:
    Some have argued that imposition of trade sanctions under the Pelly 
Amendment may not be WTO defensible. Have any Pelly sanctions been 
challenged in the WTO? If so, what was the outcome of the challenge? If 
the Pelly Amendment is not WTO consistent, then how can Congress make 
it so?
Answer:
    Under the Pelly Amendment, the President may only direct the 
Secretary of the Treasury to prohibit the bringing or the importation 
into the United States of products from a certified country ``to the 
extent that such prohibition is sanctioned by the General Agreement on 
Tariffs and Trade.'' 22 U.S.C. Sec. 1978(a)(4). The agreement 
establishing the World Trade Organization (WTO) incorporates all 
provisions of the General Agreement on Tariffs and Trade that are 
relevant to this issue. Accordingly, the Pelly Amendment by its own 
terms requires that any import prohibitions imposed under it must be 
WTO-consistent.
    There has never been a WTO challenge to import prohibitions imposed 
pursuant to the Pelly Amendment.


</pre></body></html>
